.

-r

APPENDIX III

2019 IL App (2d) 170373-U
No. 2-17-0373
Order filed November 26, 2019
NOTICE: This order was filed under Supreme Court Rule 23 and may not be cited as
precedent by any party except in the limited circumstances allowed under Rule 23(e)(1).

IN THE
APPELLATE COURT OF ILLINOIS
SECOND DISTRICT

THE PEOPLE OF THE STATE
OF ILLINOIS,

)
)

Plaintiff-Appellee,

)
)
)

)

v.

Appeal from the Circuit Court
of Winnebago County.

No. 14-CF-922

)

RICHARD WANKE,
Defendant-Appellant.

)
)
)

Honorable
Rosemary Collins,
Judge, Presiding.

PRESIDING JUSTICE BIRKETT delivered the judgment of the court.
Justices Burke and Hudson concurred in the judgment.
ORDER
Held: No error was incurred due to preindictment delay and defendant was not
prejudiced as a result; the trial court did not abuse its discretion denying the
public defender’s motions to withdraw due to actual conflicts of interest; the trial
court did not abuse its discretion in the evidentiary rulings that witness statements
were also statements of identification; defendant forfeited claims about
prosecutorial misconduct and the forfeiture did not constitute ineffective
assistance of counsel; and the trial court’s inquiry into defense counsels’ conduct
during trial and potential neglect was adequate and the trial court’s judgment was
not an abuse of discretion.

12

On February 6, 2008, attorney Greg Clark was shot three times in his back and killed as

he was clearing snow from his driveway and sidewalk during a severe snowstorm that had closed
the Winnebago County courthouse in Rockford. At the ensuing jury trial in the circuit court of
Winnebago County, defendant, Richard Wanke, was convicted of first degree murder (720 ILCS

2019 IL App (2d) 170373-U

*>

5/9-l(a)(l) (West 2008)) and sentenced to a natural-life term of imprisonment based on specific
jury determinations as to aggravating factors. Defendant appeals, arguing that: (1) preindictment
delay resulted in prejudice or the violation of his constitutional right to a speedy trial; (2) the
public defender’s office was conflicted and the trial court abused its discretion in refusing to
grant the office’s various motions to withdraw and defendant’s motions to disqualify the office;
(3) the trial court abused its discretion regarding the admissibility of statements by certain
witnesses which served to bolster their testimony as prior consistent statements under the guise
of statements of identification; (4) defendant was prejudiced by misstatements of the evidence
during the State’s closing and rebuttal closing arguments; and (5) the trial court inadequately
considered defendant’s posttrial allegations of counsel’s possible neglect and erred in failing to
appoint new counsel to pursue defendant’s claims. We affirm.
H3
14

I. BACKGROUND
We summarize the facts elicited at trial and appearing in the record on appeal. On

February 6, 2008, at approximately 1:50 p.m., Greg Clark, an attorney who was representing
defendant in a burglary case (see People v. Wanke, No. 2-08-1031 (2010) (unpublished order
under Illinois Supreme Court Rule 23) (Wanke 7), was shot three times in his back as he was
clearing snow during the midst of a heavy snowfall that had shut down Rockford. Clark died
from his wounds, which included injuries to his heart and the major blood vessels leading to and
from the heart. Later that afternoon, defendant’s residence was staked out by the police and, at
approximately 6 p.m., defendant was placed under arrest, albeit without a warrant.
15

At the time of Clark’s murder, defendant was free on bond and awaiting sentencing for

his conviction of burglary in Wanke I. Defendant was supposed to have been sentenced in
2

2019IL App(2d) 170373-U

Wanke I in November 2007, but filed a posttrial motion that required the sentencing to be
postponed. Defendant’s sentencing was rescheduled to December 2007, but on the day of the
sentencing, the courthouse was closed due to a snowstorm. Defendant’s sentencing was again
rescheduled, this time for February 8, 2008. When defendant was finally sentenced in Wanke I,
he received a 14-year term of imprisonment.

16

The police conducted an investigation regarding Clark’s murder. They interviewed a

number of witnesses, obtained and executed several search warrants, and performed scientific
testing on various recovered items.

In addition, one of the detectives participating in the

investigation, along with his partner, conducted two “travel studies” to attempt to determine the
amount of time it would have taken to drive from the victim’s house to defendant’s residence.
Also in Febmary 2008, several witnesses presented testimony to a grand jury. After all of the
results of the testing had been returned, the last of which was gunshot residue analysis of items
of clothing recovered during a search returned in December 2008, the case lay fallow.

17

According to defendant and the record, nothing appears to have occurred between

December 2008 and April 16, 2014, when the State filed a 30-count indictment charging
defendant with the murder of Greg Clark. The indictment charged intentional, knowing, and
substantial probability murder (see 720 ILCS 5/9-1 (a) (West 2008)) along with the firearm,
prevention of a criminal prosecution, and exceptionally brutal and heinous enhancing factors.
Defendant notes that Margie O’Connor, who was then an assistant state’s attorney but subsequently joined the
public defender’s office and was serving in that office during some of the proceedings in this case, obtained a revocation
of defendant’s bond in an ex parte encounter late at night with a judge not otherwise involved in this case. While
defendant filed a motion challenging the circumstances of the revocation of bond, it is not raised as an independent issue
in this appeal.

3

2019 IL App (2d) 170373-U

■«:

Before trial commenced, the State filed a notice that it intended to seek a term of natural life
imprisonment based on the aggravating factors alleged in the indictment.

118

On May 2, 2014, a private attorney, Sami Azhari, filed an appearance on behalf of

defendant. Three months later, on August 12, 2014, Azhari filed a motion to withdraw which
was granted. On August 28, 2014, the trial court appointed the public defender to represent
defendant.

H9

On September 3, 2014, David Doll, an assistant public defender, filed the office’s

motion to withdraw. The motion alleged that there were social contacts between the office and
Clark and his family.

In particular, the then-Public Defender, Karen Sorensen, had been

classmates with Clark’s wife from grade school through high school, and Clark’s law partner and
son-in-law, Barton Henbest, maintained his social contacts with the office during the years
following Clark’s murder. In addition, the motion pointed out that Margie O’Connor had since
joined the office.

110

On September 12, 2014, the trial court heard the motion. Doll observed that his ability

to zealously cross-examine Kris Carpenter, who was listed as a potential witness in the State’s
disclosures, was perhaps in question, because she was a “dear friend” of his and an assistant
public defender at the time of the murder.

Doll noted that, of the attorneys in the public

defender’s office, only he and Sorensen had the authority to authorize the funds for expert
witnesses. However, because Doll believed that both he and Sorensen were conflicted with
respect to defendant, the other assistant defenders would have no way to obtain the funds needed
to engage expert witnesses. As well, because he and Sorensen were the senior supervisors, the
other assistant defenders would have to work without their supervision. Defendant added that, in

4

>•

2019 1L App (2d) 170373-U

cases since 2000, he had been represented in Winnebago County by conflict attorneys.
The State did not take a position on the motion to withdraw. The State observed,

11 11

however, that O’Connor had testified before a grand jury in 2008, thereby “lock[ing] in” her
testimony. Likewise, the State noted that the fact that Sorenson and Doll, the public defender
office’s supervisors, claimed to be conflicted could be problematic for the reasons Doll
expressed.

Nevertheless, the assistant public defenders were deemed to be independent

contractors, so there could not be conflicts disqualifying the entire office.
112

The trial court held that O’Connor, as a potential witness, was obviously conflicted. The

trial court was not convinced that Sorenson was conflicted simply because she attended school
with Clark and his wife but determined that it would not require Sorensen personally to try the
case. The court determined that there were several attorneys in the office who had not been in
the office at the time of the offense, who did not have personal contact and relationships with
Clark, and that any of those attorneys would be able to represent defendant without conflict and
denied the motion to withdraw.
13

Following this, the public defender’s office assigned Frank Perri as defendant’s attorney.

On September 18, 2014, Perri filed a personal motion to withdraw, alleging that he had been
close friends with and was mentored by Clark.

Perri candidly represented that, due to his

connections with Clark and his family, he did not believe that he would be able to appropriately
represent defendant. At a hearing on Perri’s motion, he explained that he had requested both
Sorensen and Doll to reassign the case, but they had not done so. The trial court agreed that
Perri was conflicted and inquired whether the second-chair attorney had known Clark or
believed that she was conflicted. The second-chair attorney related that she knew Clark, but did

5

%

2019 IL App (2d) 170373-U

not feel that she was conflicted.
114

Defendant interposed a personal objection to the public defender’s office continuing to

represent him. He questioned how the office could have assigned the case to Perri, who was so
obviously conflicted. The trial court instead viewed the assignment and refusal to remove Perri
as confirmation that Sorensen and Doll were not closely involved in the case, which was as it
should be. The trial court allowed Perri to personally withdraw, but maintained the appointment
of the public defender’s office.
115

On September 26, 2014, after being assigned by the public defender’s office, Derrick

Schmidt appeared on defendant’s behalf. On the same date, defendant filed a pro se motion to
disqualify the public defender’s office, arguing that he lacked confidence in the office due to the
fact that all of the attorneys who had been assigned to his case had been conflicted and
prejudiced against him.

Schmidt was allowed time to determine whether, as defendant’s

counsel, to adopt defendant’s pro se motion.
1 16

On December 2, 2014, Schmidt filed an amended motion to disqualify the public

defender’s office.

This motion explained more fully the reasons for Sorensen’s conflict,

including her direct participation for the State in an earlier case. For this reason, when defendant
was prosecuted for the burglary case (Wanke I), Clark had been appointed as a conflict attorney.
The motion also asserted that Doll was conflicted and reasoned that, because both of the public
defender’s office’s supervisory attorneys (Sorensen and Doll) were conflicted, any assistant
public defender assigned to the case would lack both the office’s “supervisory resources” as well
as access to funds for expert witnesses because only Sorensen and Doll were authorized to make
funding determinations.

6

^ - * '*

2019 IL App (2d) 170373-U

TJ17

Next, the motion contended that the assistants with greater seniority and experience were

conflicted. Perri’s and O’Connor’s conflicts had already been discussed in earlier pleadings.
The motion purported that a majority of the assistant public defenders were friends with one of
the potential witnesses in the case.

In addition, the motion recounted that, pursuant to the

discovery already turned over in this case, in July 2008, an unnamed assistant public defendant
had approached the police about a jailhouse informant who was offering information about
defendant.
118

The motion reasoned that, in light of the supervisors’ conflicts, members of the office

had twice assisted the police in building cases against defendant, O’Connor’s direct involvement
in this case for the State, and Perri’s opinion of defendant, shared by many of the other attorneys
in the office, none of the assistant public defenders could represent defendant without conflict.
On the other hand, conflict counsel was available, and the motion requested that the trial court
appoint a conflict counsel.
119

Defendant also filed a pro se supplement to the amended motion to disqualify the office.

Defendant claimed that, in a private conversation, Schmidt had admitted to being close friends
with Carpenter, a potential witness from the office identified by the State, but Schmidt did not
know who in the office had assisted the police and who shared Perri’s opinions regarding
defendant and his guilt. Defendant also noted that Schmidt had admitted to the trial court that he
had allowed Doll to review the amended motion to disqualify before it was filed. Defendant
admitted that he did not feel that he could share confidential information with Schmidt and was
not comfortable that Schmidt and the office would provide him with appropriate representation.
1 20

During the course of the hearings on the amended motion to disqualify, it was

7

*■ V

2019 IL App (2d) 170373-U

established that Sheila Zerouali, then an assistant state’s attorney, observed “heated exchanges”
between defendant and Clark and contacted the police. The police in turn contacted Carpenter,
to whom Zerouali had spoken about the “heated exchanges.” As well, Carpenter was identified
as the attorney of the jailhouse informant who was offering information about defendant.
Schmidt maintained that no individual in the public defender’s office could effectively represent
defendant due to the office’s involvement in the prosecution of this case. He emphasized that,
because the supervisors in the office were conflicted, none of the assistant public defenders
could be properly supervised. Schmidt also revealed that he was not comfortable discussing the
case with members of the office because he was unsure of their attitudes toward defendant and
the case, and he believed that some members were directly conflicted. Schmidt reiterated that,
because Sorensen was the Public Defender, her personal conflict in this case should be imputed
to all the members of the office.
121

The trial court rejected the argument that Sorensen’s or other supervisor’s conflicts

could be imputed to the entire office finding that all the members of the public defender’s office
were independent contractors who did not share conflicts. Likewise, the trial court dismissed
Schmidt’s concerns about consulting with the members in his office finding that the two
attorneys assigned to the case could consult with each other and noting that a private attorney
might not even have anyone else with whom to consult. Finally, the trial court acknowledged
that that counsels’ inability to receive authorization to expend funds due to Sorensen’s and
Doll’s purported conflicts was a problematic issue, but assured the defense that the court itself
had been authorized by the chief judge of the circuit to step in and authorize any necessary
expenditures that could not or would not be considered by the public defender’s office,

8

>"

,

2019IL App(2d)170373-U

particularly with respect to expert witnesses. Thus, on February 6, 2015, the amended motion to
disqualify was denied.
K 22

Schmidt continued his representation of defendant until May 2015, when he departed the

public defender’s office. Defendant’s team was replaced by assistant public defenders Nick
Zimmerman and Robert Simmons who represented defendant for the remainder of the case.

1|23

On January 27, 2016, defendant, through counsel, filed a motion to quash arrest and

suppress evidence.2

The motion to quash arrest and suppress evidence contended that

defendant’s warrantless arrest at around 6 p.m. on the day of Clark’s murder was without
probable cause.

1124

On March 1, 2016, counsel filed a fourth motion to withdraw as counsel. In the motion

to withdraw, counsel argued that the motion to suppress was based on the fact that O’Connor
(then a member of the state’s attorney’s office) had traveled to the house of Judge Truitt and, at
around 11 p.m. on the day of Clark’s murder, obtained an order signed by the judge revoking
defendant’s bond in the burglary case, Wanke I.

Interestingly, Judge Truitt and the bond-

revocation order were wholly omitted from the motion to quash arrest and suppress evidence.
Counsel argued that the bond-revocation order would be an issue in the murder case and,
because O’Connor was now a member of the public defender’s office, counsels’ loyalty to
defendant would come into conflict with their loyalty to their office and O’Connor.

Defendant throughout the course of this case filed numerous and voluminous "declarations" and other
pleadings. The trial court informed defendant repeatedly that he had counsel, was not entitled to file pleadings to
supplement those of his lawyers, and would not be deemed to be co-counsel with the attendant privileges of such
position. The trial court also quite properly informed defendant that those sorts of pleadings would not be read or
considered by the court. We will therefore refer to counsels' pleadings on defendant's behalf as "defendant's."
We also note that defendant filed pleadings complaining of his attorneys' representation. These were addressed
by the trial court as appropriate. Where these sorts of pleadings are relevant, we will indicate when defendant
had filed such a pleading and, if necessary, differentiate if from the pleadings filed by counsel.

9

' <«

2019 IL App (2d) 170373-U

H 25

In denying the fourth motion to withdraw, the trial court first noted that the motion to

withdraw seemed concerned with O’Connor’s involvement in procuring the bond-revocation
order at 11 p.m., yet the motion to quash arrest dealt specifically with defendant’s arrest at
approximately 6 p.m. The trial court reasoned that there were two issues: first, the probable
cause to arrest defendant, and second, the propriety of the bond-revocation order. The trial court
noted that, in Wanke 1, the propriety of the bond-revocation order had been completely litigated,
so it believed that there would be nothing that O’Connor would have to add to the instant
proceedings. Indeed, the trial court held that O’Connor’s testimony about obtaining the bondrevocation order would be irrelevant—only the bond-revocation order itself bore any relevance
to the instant case.

126

The parties then proceeded to an evidentiary hearing on the motion to quash arrest and

suppress evidence. During the hearing, neither the parties nor the trial court raised any issue
regarding the propriety of O’Connor’s visit to Judge Truitt’s home. Following the hearing, the
trial court concluded that there had been probable cause in the February 6, 2008, warrantless
arrest of defendant at approximately 6 p.m. The trial court also denied the motion to suppress
evidence because at the time of the revocation of bond, defendant had not been charged with
Clark’s murder, and, indeed, was arrested in this case only on April 15, 2014, pursuant to an
arrest warrant.

127

Defendant registered his objection to the trial court’s ruling and his dissatisfaction with

his attorneys’ performance. Defendant first asserted that he had been denied his right to testify
during the hearing and that Zimmerman would not let him testify. The trial court rejected the
argument, noting that, when the court asked whether the defense had any other witnesses, it had

10

,

,

2019 IL App (2d) 170373-U

indicated that there were none, and defendant had not raised his right and desire to testify at that
time. Moreover, the record was replete with instances when defendant had spoken up, including
the instant episode, so the court held that defendant had acquiesced when his attorney indicated
that no more witnesses would testify on defendant’s behalf in the hearing on the motion to quash
arrest and suppress evidence.

1128

Defendant also complained about his attorneys’ failure to challenge the propriety of the

bond-revocation proceedings, particularly O’Connor’s visit to the judge’s home and the
circumstances by which the judge agreed to sign the bond-revocation order. The trial court did
not specifically address this contention, tacitly reinforcing its earlier conclusion that the bond
revocation had been fully litigated in the burglary case and was irrelevant to the proceedings in
this case, particularly in light of the court’s judgment that defendant was not arrested in this case
until April 15, 2014. Defendant expressed mistrust of Zimmerman; defendant also requested an
immediate interlocutory appeal. The trial court denied the request for an immediate appeal
because there was no appealable order at that time.
129

In April 2016, defendant filed a series of pro se motions seeking to challenge the trial

court’s ruling on the public defenders’ fourth motion to withdraw. The trial court addressed
these motions during several hearings. The court denied the motions and refused to disqualify
the public defender’s office or the two attorneys representing defendant.

I 30

On June 24, 2016, defendant filed a motion to dismiss the indictment due to

preindictment delay. Defendant argued that, by the middle of 2008, the police had completed
their investigation and nothing else happened to advance the case or discover pertinent evidence
until 2014, when the indictment was filed. However, once the indictment was filed, defendant

11

2019IL App (2d) 170373-U
interviewed two possible alibi witnesses who were nine years old at the time of the offense.
According to defendant’s investigation, the witnesses no longer recalled the events of 2008, but
defendant believed that, had they been timely interviewed in 2008, they would have provided
defendant with an alibi. Defendant concluded that the witnesses’ memory loss significantly
prejudiced his defense and requested that the trial court hold a hearing on the reasonableness of
the State’s delay and, concluding that it was an unreasonable delay, dismiss the indictment with
prejudice.
131

Also on June 24, 2016, defendant filed a notice of alibi defense. Defendant stated he

intended to raise an alibi that, on the date of the offense, he had been at his home for the entire
day. Defendant appears to infer, therefore, that his alibi witnesses would have stated that they
had seen defendant at his home at the time of the murder, but the State’s delay in initiating this
case resulted in their loss of memory and thus prejudiced his ability to defend the charges.
132

On July 20, 2016, the trial court heard argument on the motion and took it under

advisement because it had not had the opportunity to digest the State’s response to the motion to
dismiss filed the previous day. On September 7, 2016, the trial court denied the motion to
dismiss. The trial court stated:
“[B]oth parties agree that Mr. Clark was murdered on February 6th of 2008.

The

defendant was indicted for the murder of Mr. Clark in 2014. The defense has filed a
motion to dismiss for pre-indictment delay as the defendant had not been indicted until a
substantial period of time after the death of Mr. Clark.
[Defendant] was in custody since 2008. But [defendant] was in custody on a
separate case.
12

2019IL App (2d) 170373-U

So, of course, there are issues that are raised anytime there is a delay in the
indictment, and the court must consider those issues. Both parties have stated the law
that really applies to—to this. The court must complete a two-part analysis where there’s
been a delay between the alleged crime and indictment or arrest of the—or accusation.
The defendant must come forward with a clear showing of actual and substantial
prejudice.

The—if the accused satisfies the court of actual prejudice then—or [is]

substantially prejudiced by the delay then the burden shifts to the State to show the
reasonableness or necessity of the delay.
In this case the defendant makes the assertion that he may have had two alibi
witnesses, two nine year olds who may have been alibi witnesses for him who have now
been interviewed and have no recollection. The courts have dealt with this specifically,
and the courts have said that mere assertion of inability to recall is insufficient. So the
mere allegation that witnesses may not recall is insufficient under the law to shift the
burden to the State to show that the delay was reasonable and necessary.
The court has reviewed all the cases on this issue, and the court finds that this
[jz'c] defense has not met their burden. That the allegation that two witnesses cannot
recall has not shifted the burden. It is the mere assertion of their inability to recall. And,
therefore, the court finds that they have not shifted the burden to the State and have not
demonstrated actual and substantial prejudice.
So the court is going to deny the defense motion to dismiss for pre-indictment
delay.”

133

In defendant’s factual recitation on appeal, defendant mentions a July 20, 2016, pro se

13

2019IL App (2d) 170373-U

“motion to compel” the disclosure of any and all conflicts besetting the public defender’s office.
It appears in the record that the trial court treated this motion like all of the other filings made by
defendant while he was represented by counsel—namely, it was made a part of the record and
the trial court neither considered it nor ruled upon it. While the “motion to compel” appears to
be adjacent to defendant’s numerous complaints about the performance of counsel and motions
to disqualify counsel, it lacks the triggering complaint that, due to the purported conflicts, the
public defender’s office had to be disqualified, and this, we perceive, to be the reason that it was
not formally addressed by the trial court. In any event, at a February 15, 2017, pretrial hearing,
the trial court expressly noted for the record that Sorensen was no longer the public defender,
thus obviating defendant’s concerns that Sorensen’s perceived conflicts improperly infected the
public defender’s office and its continued representation of him. Defendant, however, noted that
Doll had succeeded to the position of public defender and Zimmerman was now the deputy
public defender. No further argument or discussion on that topic was held; moreover, defendant
does not seem to have argued at that time that, as currently constituted, the public defender’s
office continued to be impermissibly conflicted.

134

Finally, in the run-up to trial, the parties filed numerous motions in limine. Defendant

identifies the State’s amended 20th motion in limine and defendant’s 8th motion limine as
relevant to his factual recitation.3 The State’s amended 20th motion in limine sought to allow
testimony about prior statements of identification of defendant from Jennifer and Peter Kruchten,
We note with no small displeasure that defendant's citations to the record for these documents are
hopelessly incorrect and confusing. It is not this court's obligation to search the record for the precise document
identified by a party. See III. S. Ct. R. 341(h)(6) (eff. May 25, 2018) (party is to provide accurate citation to record in
statement of facts). We additionally note that defendant has chronically misspelled the names of witnesses and
numerous individuals identified in the record, and we have endeavored to use the correct spellings as best we
could.

14

2019IL App (2d) 170373-U

Alexandra Pro, and Dawn Domino. The trial court granted the State’s motion.

11 35

Defendant’s eighth motion in limine sought to admit evidence tending to discredit the

State’s theory that defendant and Clark’s relationship was “contentious.” Defendant sought to
counter this with testimony about other of Clark’s clients who sought to remove him as counsel
or otherwise exemplified similar “difficulties in communication” between Clark and the client.
To that end, defendant attached an August 26, 2002, motion which, while lacking other caseidentification, purported to be advanced by Patricia Wakenight seeking to remove Clark as her
counsel due to various issues existing in their attorney-client relationship. The trial court denied
defendant’s motion in limine.

136

Finally, on February 27, 2017, jury trial in this matter commenced. Phyllis Clark, the

wife of Clark, testified that, in 2008, they lived on the “far east side of Rockford” at the comer of
Oakforest Drive and Sentinal Road. On February 6, 2008, Clark had stayed home from work
due to severe weather snowing them in. After lunch, Clark went outside to clear the snow from
their driveway and sidewalk. Phyllis Clark heard what she believed to be three gunshots and
immediately looked outside.

Phyllis Clark testified that she saw a person dressed in dark

clothing standing near a blue minivan. Phyllis Clark went outside and discovered Clark lying on
the sidewalk along Sentinel next to the running snowblower. She testified that the blue van
turned right onto Sentinel and drove away.
H 37

Phyllis Clark identified the vehicle in the State’s exhibits as the van she saw on February

6, 2008. She confirmed her identification due to its color and its gold-colored tire rims.

138

The State’s evidence established that Clark was shot three times in the back. The

gunshot wounds caused his death.

15

2019IL App (2d) 170373-U
139

One neighbor, Pamela Laughlin, testified that on February 6, 2008, she heard three

gunshots. She looked at her clock, noting the time to be 1:54 p.m.
140

Other neighbors, Ingvar Carlson, Jennifer and Peter Kruchten, Christopher and

Alexandra Pro, testified to observing a blue minivan with gold-colored tire rims either driving
into the development or exiting the development. These witnesses generally testified that,
during the evening of February 6, 2008, they were taken to view a van by the police and that
they all believed it to be the same they saw and the same that was depicted in the State’s trial
exhibits.
141

Carlson also testified that, after he arrived home, he immediately began to clear the

snow. Approximately three to five minutes after beginning to clear the snow, he heard two or
three gunshots, looked in the direction of the gunshots and observed Clark lying next to his
snowblower on the ground, and observed a person running from Clark’s body. Carlson later
spoke to a detective and described the running person as tall and wearing dark clothing.
142

Both Jennifer and Peter Kruchten testified that, when they were returning home, they

passed the blue minivan and observed the van’s driver. Jennifer testified that the driver was a
white man in his early 50s with sandy light brown or dark blond hair, balding in front, no beard,
and wearing “very large prominent glasses.” Later that evening, Jennifer was taken to the Public
Safety building, she was shown a photo-array in which was included a picture of defendant
without his glasses, and she picked two pictures as possibly being the man she saw driving the
van. One of the two pictures was of defendant. A few days after the shooting, Jennifer saw a
newspaper article about Clark’s shooting which contained a picture of defendant. Jennifer
testified that the picture in the article was of the man she had seen driving the van on February 6.
16

2019IL App (2d) 170373-U

She informed Peter that she thought the man in the picture was the man driving the van, and she
told the police the same thing.
T143

Peter testified that, when he passed the van, he became fixated on the clothing the driver

was wearing, particularly the cuff of the jacket the driver was wearing. At trial, Peter identified
a denim jacket as having the same cuff that the driver was wearing. Peter was shown a photo
lineup during the evening of February 6 but was unable to identify anyone. After the shooting,
he saw a newspaper article and believed the picture to resemble the man he had seen driving the
van, and Peter informed police.

144

Alexandra Pro testified that, as they were returning to their home on February 6, she and

her father saw a van that Alexandra believed belonged to a friend’s mother. When she looked at
the driver, she realized it was not her friend. She described the driver as a white man with long
greasy hair and stubble on his face. The man was also wearing glasses and a hat. Alexandra
testified that, later that day, she was unable to identify anyone in the photo lineup she was
shown. A few days later, she looked up a news story about the shooting on her computer. The
story had a photo and the photo depicted the man she had seen driving the van. On February 13
2008, Alexandra met with police and informed them that the photo from the article depicted the
van’s driver she had seen on the day of the shooting.

145

Christopher Pro testified that he noticed the blue van because he believed it was driving

too fast for the snowy conditions. Christopher testified that he had to focus on the van (and
particularly the tires with the gold rims) to make sure that is would not collide with his car.

146

Clara Arco testified that, at the time of the shooting, she was seven years old. On

February 6, 2008, she was outside playing with her dog. Clara was interviewed by the police a

17

2019 IL App (2d) 170373-U

few days after the shooting. She informed the police that she had seen Clark clearing snow and
observed “a guy in a gray hoodie and jeans and black shoes c[o]me up and sho[o]t [Clark].” The
man then got into a van parked on Oakforest and left. She testified that she thought the van was
“bluish-green.” Clara testified, however, that, as of the date of her testimony, she was unsure
whether she was testifying to her actual memories or whether, through conversations with family
and neighbors at the time, she was simply remembering what she had been told.

147

James Arco, Clara’s father, testified that, on February 6, 2008, Clara had gone out to

play that afternoon. She came in suddenly, appearing to be upset. James also testified that Clara
had gone hunting with him on occasion and was familiar with the sound of gunshots.

148

Police officers who interviewed Clara both on the day of the shooting and a few days

later testified that Clara told them she saw two people standing near each other near her bus stop
(which was on the comer of Oakforest and Sentinel, where Clark’s house was located). Clara
heard three gunshots, and one of the people got into a blue van. She told one of the officers that
the man who ran to the van was wearing dark clothes and a gray hoodie.

149

The State also questioned two witnesses about observations made days before the

shooting. Terri Misner testified that, On February 5, 2008, around 12:15 p.m., she noticed a blue
van with gold tire rims parked on Sentinel facing west. The van’s driver was a light-skinned
woman with long dark hair and glasses. Misner testified that she observed the van turn around
and drive off east along Sentinel.

150

Misner testified that the van shown in the State’s trial exhibits was the van she had seen

on February 5. During the evening of February 6, 2008, Misner identified the van to police. She
was also shown a photo lineup and identified Diane Chavez as the driver of the van. Chavez, the

18

*

■->

,

2019 IL App (2d) 170373-U

record shows, was defendant’s landlord and roommate and owned the blue van with gold tire
rims.
151

Dawn Domino testified that she lived near Clark’s house on a different street. On either

February 4 or 5, 2008, she noticed an old, boxy, 1970s-style red or brown pickup truck parked
hear her house. She recalled the driver because he looked at her with a “mean and angry face,”
which frightened her. Domino described the driver as a white man who had “stringy blondishdark hair,” a mustache and beard, and glasses. Domino testified that, on February 8, 2008, she
saw a newspaper story about the shooting that had a photograph of a man that she recognized to
be the man she had seen in the pickup truck who frightened her.

She told the police and

identified defendant’s picture from the newspaper article.

152

Defendant notes that, “[o]ver a continuing and occasionally-repeated defense objection,

the [trial court] allowed the State to introduce more testimony concerning the prior statements by
the above eyewitnesses.” Defendant does not identify specific witnesses (other than a cite to a
reiterated objection during the testimony of Detective Brad Shelton recounting what he had been
told by Christopher Pro). The State also wished to obtain clarification regarding the motion in
limine allowing police officers to testify about the identifications they received from the various
witnesses. Defendant objected, contending that, because the witnesses had testified, allowing
the officers to reiterate the witnesses’ identification testimony was cumulative. The trial court
agreed, noting that the objection to the cumulative testimony was valid. The trial court allowed
the testimony in, admonishing the State, “don’t be cumulative and don’t ask for things that
cannot be brought in.” Defendant does not appear to have objected to the ensuing testimony as
violating the trial court’s admonition.

19

2019IL App (2d) 170373-U
153

Detective Eddie Torrance, of the Rockford Police Department, testified that, at 1:54 p.m.

on February 6, 2008, he was parked at the public safety building when he heard a call concerning
a shooting at Clark’s address. Torrance drove to the scene in a marked police vehicle with lights
and siren activated. Torrance testified that, due to the snowy conditions on the roadways, he
drove down the center of the streets. Torrance testified that he did not recall the amount of time
it took to arrive at Clark’s house, but he noted that, due to the conditions, traffic was moving
“very slow[ly].”
154

Torrance testified that, roughly halfway through his drive, he noticed a dark blue van

that was not pulling over to the side of the road. The van was covered in snow, so he was not
able to read the license plate. Torrance did not include this observation in any reports he wrote
that day, and he did not mention it to any other officers that day. However, sometime in March
2008, Torrance noticed a picture of Chavez’s van (which picture was used as an exhibit during
the trial) on his sergeant’s desk, and he realized that it depicted the van he saw failing to pull
over to the side of the road on February 6.
155

A number of other police officers described their investigation of the scene, collection of

evidence, interviews with witnesses. In general, the officers testified that they brought the
witness to the Public Safety Building or else the location of Chavez’s van, gave the witness an
opportunity to identify the van, and indicated whether the witness did or did not identify the van.
Likewise, the officers testified about presenting photo lineups to the witnesses. The photo lineup
presented on February 6 contained pictures of defendant not wearing glasses. The witnesses did
not make an identification of defendant at that time. However, due to the newspaper article with
defendant’s picture, a number of the witnesses informed the police that they could identify the
20

,

'J m

2019ILApp (2d) 170373-U

picture as the man they saw driving the van on the day of Clark’s murder.

156

In detailing their investigation, the police witnesses testified that, in 2008, defendant

lived in a two-flat building with his landlord, Diane Chavez. The evidence showed that the
ground floor appeared to be used as an office-type space, and the upper floor was the residence.
Chavez also owned the van depicted in the State’s trial exhibits and identified by a number of the
witnesses. It was a 1998 Dodge Caravan with the “gold package” option, meaning it had goldcolored tire rims. The police investigation showed that at that time, there were three 1998
Dodge Caravans with the gold package registered in Winnebago County.

1157

On February 6, 2008, the police discovered Chavez’s van parked a block-and-a-half

away from Chavez’s and defendant’s residence.

Several officers described the arrest of

defendant, which occurred at approximately 6 p.m. on February 6. Defendant was walking
toward the van and walked behind a surveillance vehicle, causing the surveillance vehicle to
move. Defendant appeared to lock eyes with one of the officers and change his direction of
travel. The police then arrested him.

158

Charles Smith testified that he worked with Chavez and became very friendly with

Chavez, to the point that she was involved in his financial and health affairs. Smith was also
friends with defendant. Smith testified that Chavez had access to his house with keys and a
garage door opener. Smith testified that, on February 6, 2008, he returned to his home after
work at about 4:30 p.m. He observed Chavez’s van parked in front of his house, and the
defendant was inside his home using the computer. Defendant left shortly after Smith returned.
As defendant was leaving, he told Smith that he had left the basement light on and offered to go
and turn it off. Smith refused the offer. Smith testified that defendant did not explain what he

21

2019IL App (2d) 170373-U

had been doing in the basement; the State introduced some of Smith’s grand jury testimony in
which Smith testified that defendant told him he had been doing laundry. Smith was unable to
recall what car Chavez had driven to work on February 6; Smith’s grand jury testimony stated
that he saw Chavez’s red Dodge Neon, not the van at issue.

159

Jeremy and Jessica Berg, who were Smith’s neighbors, testified that, on February 6,

2008, between 2:15 and 2:45 p.m., the each noticed Chavez’s van parked outside of Smith’s
house. Each testified that the observed a man in Smith’s driveway. Jeremy described the man as
someone whom Smith referred to as “Richard,” and described his physical characteristics as a
white male in his 40s, tall, with long, sandy blond hair in a ponytail, wearing blue jeans and a
baseball cap. Jessica described the man as a middle-aged white male with long blond hair, a
goatee, and wearing glasses and a dark jacket.

160

Late in the night of February 6 and extending to the early morning hours of February 7,

2008, the police searched Smith’s residence, as well as defendant’s and Chavez’s residence. In
Smith’s house, police recovered a garbage bag full of freshly laundered and still wet clothing,
washcloths, and dish towels. Testing revealed that several clothing items contained genetic
material from which defendant could not be excluded as the donor. The police also seized
Smith’s computer. At defendant and Chavez’s residence, police seized four computers and a
microcassette tape.

161

Police analyzed the computers. According to the analysis, none of the computers from

defendant and Chavez’s residence showed any hard drive activity occurring between 3:15 a.m.
and 2:46 p.m. on February 6, 2008. Regarding the computer seized from Smith’s residence, for
February 6, 2008, the computer showed no files created between 12:59 p.m. and 2:12 p.m., no

22

,

2019IL App(2d)170373-U

files modified between 11:07 a.m. and 12:54 p.m., and no files accessed between 10:48 a.m. and
3:15 p.m. A different analysis of the computer from Smith’s residence showed several instances
of user-initiated internet activity occurring on February 6, 2008: at 8:17 a.m., 11:08 a.m., 11:28
a.m., and 5:27 p.m.
H 62

Additional evidence showed that, on February 6, 2008, at 2:15 p.m., a landline

associated with defendant’s and Chavez’s residence placed a call to Chavez’s work phone. In
addition, defendant possessed a cellular phone registered to the name of David Emmons.
163

The State introduced evidence supporting its theory that defendant and Clark had a

contentious relationship.

Sheila Zerouali, the assistant State’s attorney who prosecuted the

burglary charge in Wanke I, testified that her and Clark’s trial preparation was interrupted and
the trial delayed, because defendant had given copies of certain photographs to Clark, but not the
originals. Defendant was eventually tried and convicted of burglary. On November 5, 2007,
Clark filed a motion for a new trial on defendant’s behalf. The burglary matter was continued to
December 11, 2007, but a winter storm closed the courthouse on that date, so the sentencing in
the burglary matter was rescheduled to February 8, 2008. Zerouali testified that, over the course
of the burglary trial, she observed that, in March 2007, the two appeared strained and frustrated
with each other, and this increased over time to the point that, at a later hearing, they were
cutting each other off and both looking very strained and tense. The State also introduced
excerpts from transcripts from the proceedings in Wanke I. The excerpts detailed the desire of
Clark to withdraw his representation of defendant, the communication difficulties between them,
and defendant’s complaints of Clark’s alleged ineffective assistance.

In addition, the State

presented excerpts from defendant’s motions complaining about Clark’s representation in Wanke

23

2019IL App (2d) 170373-U

1. The State also introduced the contents of the microcassette recording for the purpose of
illustrating the relationship between defendant and Clark.
164

The State also presented evidence regarding the November 4, 2007, shooting outside of

Clark’s home. November 4 was the day before defendant’s originally scheduled sentencing
hearing in Wanke I. Clark was taking out the garbage and heard four gunshots and smelled the
odor of gunpowder. The neighbor across the street’s front window was broken and a bullet
lodged in the living room wall. Nothing was done about the bullet until the murder, when it was
recovered from the neighbor’s wall and tested. The testing showed that the bullet had been fired
from the same gun as the bullets recovered from Clark’s body.
165

In March 2008, the police also conducted travel studies to determine how long it might

take to travel between Clark’s house and defendant’s residence. The officer testified that, in the
first study, under clear conditions, the trip took 18 minutes including 3 minutes and 20 seconds
stopped at traffic control devices. In the second study, conducted on a snowy day, but not as
snowy as on February 6, 2008, the trip took 18 minutes and 40 seconds including 2 minutes and
50 seconds stopped at traffic control devices.

The police also timed every stoplight and

determined that they could increase the time of the trip by up to nearly nine minutes.
166

The defendant points to a number of instances of prosecutorial misconduct where the

State misrepresented the evidence or made purportedly inappropriate arguments to the jury. In
the State’s initial closing argument, the prosecutor argued that, on February 6, 2008, “all activity
went dark from 11:00 until I believe it’s later afternoon, approximately 5:00 p.m.” Defendant
did not object. The prosecutor also stated that Christopher Pro provided the same identification
details as the other witnesses: “Forty- to fifty-year-old, glasses, grayish hair, scruffy beard, dark

24

2019IL App (2d) 170373-U

blue Dodge minivan with gold hubcaps.” Defendant did not object.
During the State’s rebuttal closing argument, the prosecutor repeatedly argued that

K 67

defendant killed Clark to remove him from his burglary case (Wanke I). Defendant identifies
eight specific instances of this motive argument:
(1)

First, the prosecutor argued, “there’s only one person that wanted Greg Clark off

the case, and he sits right over there (indicating).”
(2)

The prosecutor argued that, after shooting Clark, defendant thought, “Done with

him. He’s off my case. He’s not gonna control things anymore.

I’m gonna be in

control—by any means necessary.” (Italics in original.)
(3)

The prosecutor described the shooting as follows:
“Caught Mr. Clark totally off guard. Totally off guard. Turns his back
and takes three in the back, on his client, because he didn’t want Mr. Clark any
longer on his case. He didn’t want him appearing on his case. And the only way
to be certain of that was to take Mr. Clark out. And he did.”

(4)

The prosecutor argued that defendant acted “by any means necessary [to] take

Mr. Clark out to get Mr. Clark off of his case.”
(5)

The prosecutor argued: “We have a disgruntled client of Mr. Clark, a breakdown

in communication, a failure to communicate, quite frankly, with Mr. Clark, with the
court, because the defendant wants Mr. Clark off of the case and that’s not going to
happen—not unless [defendant] takes matters into his own hands.”
(6)

The prosecutor argued: “Each time there was an attempt on Mr. Clark’s life, the

defendant was on notice that Mr. Clark was not getting off his case.”

25

2019IL App (2d) 170373-U

(7)

The prosecutor asked the jury: “So what do we have? We have a defendant; we

have Mr. Clark. We have a defendant not wanting Mr. Clark to be his attorney anymore,
so he took that matter in his own hands.”
(8)

The prosecutor concluded her argument with the following:
“All of you today: Who wanted Mr. Clark dead? Who wanted Mr. Clark
off the case? Who, by any means necessary, was going to get Mr. Clark off the
case? Who turned mission impossible into mission possible? The killer sits there
(indicating). His picture revealed to you through the eye testimony of all the
witnesses who saw him that day, who saw him before that day. He wanted Mr.
Clark dead because that was the only way to get Mr. Clark off of his case.”

Defendant did not object to any of the enumerated prosecutorial statements.

168

Defendant notes that the prosecutor argued that, according to Clark’s schedule,

defendant’s was the only case for which he had to appear in court in the days following the
shooting instances occurring in November 2007 and February 2008.

Regarding the fatal

shooting, the prosecutor argued that defendant chose the place of the shooting because defendant
knew that the courthouse was closed due to the weather and knew that Clark would not have to
attend to any legal business that day. Defendant did not object.
169

The prosecutor argued that Smith found the bag of wet clothes in his basement and

called the police to report it. Defendant did not object.

170

Defendant emphasizes that “[t]he prosecutor argued that when the four eyewitnesses all

failed to identify the defendant in the February 6, 2008, photographic array, they nevertheless
‘said’ that his hair and beard matched those of the driver.” Defendant did not object to this

26

,

0

,

20191LApp (2d) 170373-U

passage.

171

Defendant also notes that the prosecutor “also argued that the four witnesses who had

seen the defendant’s picture in the newspaper immediately called the police to report that he was
the person they had seen.” To illustrate, defendant quotes the following passages from the
prosecutor’s rebuttal argument:
“[The neighbors/eyewitnesses are] the ones calling the police; the police aren’t calling
them.

They are on the phone, fast dialing—whatever—contacting the police, telling

them, ‘That’s the man.’
And who is the man? It’s the defendant (indicating).
Nobody told them who to pick out. They recognized him because they had seen
him. He’s the man driving the van the day Mr. Clark is murdered. He’s the man running
to the van. He’s the man in the neighborhood the day before Mr. Clark is murdered. The
recognized him.”
172

Defendant did not object to those passages.

1 73

Defendant last points to the following portion of the rebuttal closing argument regarding

the motivation of the neighbors:
“Their only motive, ladies and gentlemen, is to tell the truth about what they saw.
That’s their only motive. And they saw him. They didn’t see anyone else running to that
van. They saw the defendant. And that’s what they told you, and that’s what they told
the police officers. And they recognized him, and they identified him.”

174
175

Defendant did not object.
Eventually, the jury found defendant guilty of first degree murder. The jury also made

27

2019ILApp (2d) 170373-U
the requested special findings, determining that: (1) defendant personally discharged a firearm
and caused Clark’s death; (2) Clark was over 60 years of age; (3) the murder was cold,
calculated and premeditated; and (4) the murder was exceptionally brutal and heinous. On April
3, 2017, the trial court entered judgment on the jury’s verdict of guilty on all 30 counts of the
indictment.
176

Also on April 3, 2017, defendant’s counsel filed a motion for a new trial. On that same

date, defendant filed his pro se addendum to defense counsel’s motion for new trial. The trial
court once again admonished defendant that he was represented by counsel and that his pro se
addendum was without legal effect, but it allowed the filing nonetheless. Additionally, the court
admonished defendant that it would not consider the filing in any way.
1 77

On May 10, 2017, counsel filed an amended motion for new trial. Among the

allegations in the motion were claims that the trial court erred by denying the public defender’s
offices motions to withdraw, by denying defendant’s motion to dismiss due to preindictment
delay, and by admitting evidence of various witnesses’ prior consistent statements.
178

Also on May 10, 2017, defendant filed a pro se response to the State’s response. Once

again, the trial court admonished defendant that his pro se filings while represented by counsel
would not be considered. On May 18, 2017, after sorting out whether counsel would adopt any
of defendant’s pro se pleadings (counsel did not), the trial court denied defendant’s amended
motion for a new trial.
179

On May 23, 2017, defendant filed his pro se motion for preliminary inquiry on

ineffective assistance requesting a hearing pursuant to People v. Krankel, 102 Ill. 2d 181 (1984).
The motion alleged, among other things, that counsel did not call Chavez as a witness and did
28

2019IL App(2d) 170373-U

not utilize Chavez’s documentation indicating that she could not have been in Clark’s
neighborhood when Misner claimed to see her. Defendant supported this claim with Chavez’s
affidavit averring that the she used her February 5, 2008, lunch hour to eat lunch, withdraw
money from an ATM, and pay a parking ticket at the city hall. Attached were Chavez’s receipts
showing that between 12:14 p.m., and 12:23 p.m., she was engaged in these activities.

H80

The motion alleged that counsel had failed to investigate other of Clark’s clients who

were dissatisfied with his representation. Defendant alleged that Robert Appelgren, who was a
white male of similar age and appearance as defendant, was a disgruntled client of Clark who
was “crazy enough to shoot” Clark. Defendant attached records showing that Robert Appelgren
had an extensive criminal history and had sued other attorneys. Defendant also alleged that
Patricia Wakenight had complained to the Attorney Registration and Disciplinary Commission
about his representation of her and attached her complaint letter and a copy of her pro se motion
seeking to remove Clark from her case.
1 81

Last, defendant alleged in the motion that counsel had not objected to the State’s

“numerous inappropriate comments during closing argument.” Defendant referred to his own
filing for a new trial in which he detailed counsel’s failure to object. In addition, defendant
noted that counsel, in arguing the motion for new trial, attempted to point out “several of the
egregious, unreasonable inferences or misstatements” by the prosecutor in her rebuttal closing
argument, but the argument was short-circuited when the State pointed out that counsel had not
objected during the argument itself.

K 82

On the same day, May 23, 2017, the trial court conducted an inquiry into defendant’s

motion. Defendant read from a prepared statement for a period (consisting of 20 pages of the

29

2019IL App (2d) 170373-U
record of proceedings). After defendant began recounting the forecasts for the snowstorm that
affected Rockford on the day of Clark’s murder, the trial court interrupted defendant and
inquired what remained. Defendant replied had had 10 more pages to read, and the trial court
refused to allow him to continue to read, stating that, instead, she would read his motion and
exhibits as well as the remainder of the prepared statement. After an adjournment for the court
to read the material defendant submitted, the trial court asked counsel to reply to defendant’s
motion. Counsel stated that he did not have a specific response but indicated that he would
respond to the court’s specific questions.
1 83

Zimmerman stated that much of defendant’s complaints were matters of strategy.

Responding to the complaint that Chavez was not called, Zimmerman explained that she had not
been called as a witness because Zimmerman preferred to insinuate that Chavez was involved
and allow the jury, because there was no accountability theory, the option to infer it was Chavez
rather than defendant who was responsible for the shooting. Defendant notes that the trial court
did not ask why Zimmerman failed to object the State’s improper arguments or whether he had
investigated other suspects. The trial court did ask Zimmerman whether he failed to adequately
investigate the matter, and Zimmerman replied that he had not.
184

The trial court stated:
“Okay. The Court has read over [defendant’s] comments. I have read his motion
for preliminary inquiry of ineffective assistance of counsel. And I find that—and I was
present during all of the trial and all of the pretrial motions. Counsel, did, I think,
adequately and adversarially test the evidence against [defendant] for the purposes of this
preliminary inquiry. I find that [defendant] has failed to bring any evidence forward, any
30

.

u

,

2019IL App(2d)170373-U

credible evidence forward that there is anything that could possibly be construed to be
ineffective assistance of counsel, and the Court is going to deny the motion for a Krankel
hearing, as I find that his claims are without merit.”
H85

The matter moved to the sentencing hearing, and the trial court sentenced defendant to a

term of natural-life imprisonment. Defendant timely appeals.

186
187

H. ANALYSIS
On appeal, defendant contends the trial court erred in refusing to dismiss this case over

the six-year preindictment delay.

Next, defendant contends that the trial court abused its

discretion by denying the motions to withdraw from the public defender’s office. Defendant
next argues that the trial court abused its discretion by allowing the State to bolster the
eyewitness testimony with the witnesses’ prior consistent statements. Defendant argues that he
was denied a fair trial due to the many misstatements of evidence in the State’s closing
arguments. Finally, defendant argues that the trial court abused its discretion by refusing to
appoint new counsel where defendant had demonstrated the possibility that counsel had
neglected his case. We consider the contentions in turn.

188
189

A. Preindictment Delay
Defendant argues that the six-year gap between his arrest for the murder of Clark and the

return of the indictment charging him with the offense violated his constitutional rights so that
the trial court erred in refusing to dismiss the indictment.

This issue is analytically quite

straightforward despite defendant’s contentions. Accordingly, we shall begin our analysis with
the proper framework for the preindictment delay inquiry before later addressing defendant’s
specific contentions as necessary.

31

2019 IL App (2d) 170373-U

1190

In People v. Lawson, 67 Ill. 2d 449, 459 (1977), our supreme court, relying on United

States v. Marion, 404 U.S. 307 (1971), held that a claim of preindictment delay is initially
considered in a two-step process. First, where there has been a delay between an alleged crime
and an arrest, accusation, or indictment, the defendant must make a clear showing of actual and
substantial prejudice. Id. If the defendant satisfies the trial court that he or she has been actually
and substantially prejudiced by the delay, the burden is shifted to the State, which must show the
reasonableness or necessity of the delay. Id. If the initial process demonstrates both substantial
prejudice and reasonableness of a delay, the court will then proceed to the next step and decide
by balancing the interests of the defendant and the public. Id. If the defendant fails to establish
prejudice, the inquiry stops at that point, and there is no need for the court to consider the
reasonableness or necessity for the delay. Id. at 459-60. This analytical framework is now well
established.

See People v. Kilcauski, 2016 IL App (5th) 140526, U 23 (same analytical

framework) People v. Daniels, 2015 IL App (2d) 130517, ^ 19 (same); People v. DiBenedetto,
93 Ill. App. 3d 483, 487 (1981) (same). Likewise, it is well established that a defendant’s or
witness’s inability to remember generally will not constitute actual and substantial prejudice.
Lawson, 61 Ill. 2d at 458-59; People v. Carter, 168 Ill. App. 3d 237, 247-48 (1988). We review
de novo the trial court’s judgment on a motion to dismiss the indictment due to preindictment
delay. People v. Goad, 2013 IL App (4th) 120604, TJ 25.
191

With the foregoing principles in mind, we are now confronted with the threshold issue of

whether defendant made a sufficient showing of actual and substantial prejudice to trigger
inquiry into the reasonableness or necessity of the preindictment delay. Defendant argues that
prejudice was demonstrated by the fact that two potential alibi witnesses, nine-year-old twins in

32

2019IL App (2d) 170373-U

February 2008, through the passage of time, have lost their memories of February 6, 2008, and
were not contemporaneously interviewed to preserve their potential testimony. The trial court
held that the potential witnesses’ memory loss (essentially rendering them unavailable) was
insufficient to shift the burden. We agree.
192

We note that defendant characterized the witnesses as providing additional alibi

evidence. The fact that they would provide additional evidence suggests that defendant had
other alibi evidence available. Thus, the functional unavailability of the two witnesses did not
hamper his ability to prove alibi evidence as the witnesses were additional. Defendant clearly
does not argue that the witnesses were necessary and held the only evidence of alibi.
193

In addition, defendant does not explain what the evidence was to be. Without an

explanation of the potential evidence, his claim devolves into a claim of possible prejudice,
especially since defendant deemed the witnesses as having “additional” evidence.
194

Defendant contends that the trial court erred in holding that Lawson and DiBenedetto

stood for the proposition that loss of memory or witness unavailability occasioned by
preindictment delay could never amount to substantial prejudice. Defendant is correct (and we
note that we do not view Lawson and its progeny in the categorical fashion defendant ascribes to
the trial court), but even so, the trial court’s judgment, that defendant had not established actual
and substantial prejudice, was correct. See People v. Mueller, 2018 IL App (2d) 170863, ^1 16
(the appellate court reviews the trial court’s judgment, not its reasoning). The trial court was
correct because the potential alibi witnesses would have provided additional alibi evidence and.
even as developed on appeal, the details of the potential testimony presented are so vague, it is
impossible to determine whether that evidence would nevertheless have been able to be

33

20191L App (2d) 170373-U
harmonized with the other evidence in the record.4 In other words, under the circumstances
apparent in the record, defendant has demonstrated only the possibility of prejudice, not actual
and substantial prejudice.
1 95

In support of his point, defendant cites United States v. Lovasco, 431 U.S. 783 (1977),

for the proposition that the unavailability of a witness, through memory loss or death or other
means, may constitute actual and substantial prejudice to require consideration of the
reasonableness and necessity of the delay. What we have said does not conflict with Lovasco, so
Lovasco does not impact our analysis, particularly because that case concerned the
reasonableness of the preindictment delay, not whether the defendant had demonstrated actual
and substantial prejudice (which was accepted). Lovasco is therefore unavailing.
196

Defendant further assails reliance on Lawson and DiBenedetto because those cases

involved each defendant’s loss of memory, not a witness’s loss of memory. The contention,
however, is not directed at the analytical framework, and we accept the principle that, under
appropriate circumstances, a witness’s loss of memory may constitute actual and substantial
prejudice. As explained, however, under the circumstances here, defendant has demonstrated
only the possibility of prejudice, so the trial court’s judgment was correct.
197

Defendant also argues that, rather than using the Lawson framework, we should instead

use the constitutional speedy-trial analysis employed in Barker v. Wingo, 407 U.S. 514 (1972).

We note that defendant argues only that the witnesses "would have testified that they saw the
defendant outside (of his residence] around 2:00 p.m. that day." This "summary" of the potential testimony is
sufficiently imprecise that, based on the record, defendant could have been spotted at his residence "around" 2
p.m. and still have committed the offense, fled the scene, and returned to his residence where, "around 2:00
p.m.," he was observed by the witnesses.

34

,

1/

,

2019IL App (2d) 170373-U

Defendant reasons that he was arrested for the murder of Clark, and that should have started the
speedy-trial clock, at least for purposes of the federal constitution. We disagree.
198

On February 6, 2008, defendant was arrested without a warrant. At the time of his

arrest, defendant stood convicted of burglary in Wanke I, and was free on bond pending
sentencing. On the same day, defendant’s bond was revoked, and he was thereafter held in
connection with the burglary case, up to and including the filing of the indictment in this case.
Defendant was not charged with Clark’s murder by information at any time before the April 16,
2014, indictment for Clark’s murder.
U 99

It is well established that cases involving preindictment delays, i.e., delay between arrest

and indictment, are analyzed under the Lawson framework. People v. Silver, 376 Ill. App. 3d
780, 783 (2007). By contrast, a delay in arresting the defendant after an indictment has issued is
addressed pursuant to the federal constitutional speedy-trial right under the sixth amendment. Id.
This constitutional speedy-trial analysis follows Barker (adopted in Illinois in People v. Bazzell,
68 Ill. 2d 177, 182 (1977)), and consists of four factors: (1) the length of the delay; (2) the
reasons for the delay; (3) the defendant’s assertion of his or her speedy-trial right; and (4) the
prejudice to the defendant resulting from the delay. Silver, 376 Ill. App. 3d at 783.

1 ioo

Here, defendant was arrested without a warrant while he was already convicted of

burglary and free on bond pending sentencing in that case (Wanke I).

During the pretrial

proceedings in this matter, the court determined that probable cause existed to believe that
defendant had committed a crime at the time of his warrantless arrest, so the arrest was valid.
On the same day as the arrest, defendant’s bond in the Wanke I case was revoked and he was
held in custody pursuant to the bond revocation and his eventual sentence in Wanke I, from that

35

2019 IL App (2d) 1703 73-U
day until the indictment in this matter was returned. Thus, the delay in this case is preindictment
delay, not one of delay in arresting the defendant after criminal charges had been preferred.
Therefore, Lawson, not Barker, applies to the analysis of the delay in this case.

Hioi

In United States v. MacDonald, 456 U.S, 1, 6-7 (1982),5 the Supreme Court discussed

Marion (upon which our supreme court relied in Lawson) and constitutional speedy-trial right.
Quoting Marion, the Supreme Court noted that it had held “that the Speedy Trial Clause of the
Sixth Amendment does not apply to the period before a defendant is indicted, arrested or
otherwise officially accused.” Id. The Supreme court held that, “[although delay prior to arrest
or indictment may give rise to a due process claim under the Fifth Amendment, (citation), or to a
claim under any applicable statutes of limitations, no Sixth Amendment right to a speedy trial
arises until charges are pending.” Id. at 7.
U 102

Defendant focuses on “arrest” as the trigger for the inquiry into whether his speedy-trial

rights under the constitution were violated. As Lawson makes clear, however, arrest cannot be
the triggering event because “there is no right to be arrested once an alleged violation has
occurred.” Lawson, 67 Ill. 2d at 457. Moreover, even though MacDonald appears to treat
“indict[ment], arrest[], or *** official^ accusation]” as equivalent (MacDonald, 456 U.S. at 6),
it nevertheless makes clear that the indictment-arrest-official-accusation troika applies only to
those against whom a prosecution has been instituted (id. at 6-7). Indeed, if an arrest were held
to begin a prosecution, absurd results would necessarily follow. This is not to say that an
accused is without protection in the preindictment period; rather, the accused remains protected

This case was the subject of the State's tardy motion to cite additional authority. At oral argument,
defendant indicated that he had no objection to the motion. Accordingly, we grant the State's motion to cite
MacDonald as additional authority.

36

20191L App (2d) 170373-U

albeit under the Lawson framework of inquiry: a showing of actual and substantial prejudice, the
State’s explanation, and, if the explanation for the delay is reasonable, the court balances the
competing interests.
H 103

While an “arrest” is a significant step, the concern, expressed in Marion and adopted in

Lawson, is over the interference with the defendant’s liberty, the disruption of the defendant’s
employment, financial resources, the possible subjection to public obloquy, and the creation of
anxiety for the defendant and his family and friends. Marion, 404 U.S. at 320. Here, because
defendant was properly held pursuant to a bond revocation while he awaited sentencing for the
burglary for which he was convicted in Wanke I and thereafter while he was in custody on his
sentence, the Marion concerns are almost wholly obviated. Defendant’s confinement during all
times of the period between his bond revocation and indictment for murder was proper. In other
words, had defendant only been taken into custody for the crime of murder only upon his
indictment (and arguably, this is what actually occurred), he would nevertheless been in custody
at all times after his arrest until his indictment due to the bond revocation and sentence in Wanke
I.

Thus, the Marion concerns never really came into play.

U 104

We also note that prosecution is defined as “legal proceedings

commencing with the

return of the indictment or the issuance of the information.” 720 ILCS 5/2-16 (West 2008). It is
the State’s Attorney who has the authority and discretion concerning commencing a prosecution.
People v. Pankey, 94 Ill. 2d 12, 16 (1983). In the absence of an indictment or information, the
prosecution cannot be said to have commenced.

Only when the criminal prosecution has

commenced are the protections of speedy-trial clause of the sixth amendment (U.S. Const.
amend. VI) available to a defendant. Marion, 404 U.S. at 313. Thus, an arrest, without the

37

2019IL App (2d) 170373-U

*

subsequent commencement of a prosecution, will not trigger the constitutional speedy-trial
protections, but instead will be analyzed under the Lawson due-process framework.
People v. Townsel, 2018 IL App (2d) 160612, similar to Pankey, instructs that a

1 105

prosecution commences upon the official and deliberate charging of the defendant with an
offense. Id. ^ 8. In that case, the defendant challenged the efficacy of a complaint to initiate a
felony prosecution for the purposes of a consecutive-sentencing provision. We held that the
filing of the complaint formally charged the defendant notwithstanding the fact that a
superseding indictment was filed later. Id. Here, while defendant was arrested on the same day
as Clark’s murder, and while there was probable cause to believe defendant had committed an
offense, there was no formal charge until the April 16, 2014, indictment of defendant. Again,
because no prosecution had commenced (Pankey, 94 Ill. 2d at 16; Townsel, 2018 IL App (2d)
160612, K 8), the analysis of the effect proceeds under the Lawson due-process framework. See
also People v. Johnson, 2015 IL App (4th) 130968, ^1 21 (an appearance bond is not a charging
instrument).
U 106

Even if the Barker factors applied, except for the length of the delay, they cut against

defendant or are manifestly inappropriate to the circumstances. Obviously, the length of the
delay between arrest and indictment is extremely lengthy, but to make the statement illustrates
its inapplicability. See Silver, 376 Ill. App. 3d at 783. The reasons for the delay were never
articulated.

On the other hand, they were not required to be articulated under the proper

analysis, so we deem the factor inapplicable. Defendant never asserted his speedy-trial right in
this matter prior to the indictment. Again, making the statement illustrates its inapplicability
because it is axiomatic that, until the prosecution is initiated, a defendant cannot assert his or her

38

.

*

,

2019IL App(2d) 170373-U

right, statutory or constitutional, to a speedy trial. We deem this factor inapplicable. Last,
prejudice, as discussed above, cuts against defendant, because he showed only the possibility of
prejudice and not actual and substantial prejudice. This factor weighs in favor of the State.
Thus, because the prejudice factor is the only factor the application of which is not nonsensical,
the Barker factors, insofar as they are relevant, weigh in favor of the State and against defendant.
Accordingly, we reject defendant’s invitation to transform the analysis of preindictment delay
into one of constitutional speedy-trial delay which, to the extent applicable, nevertheless weighs
against defendant.
107

Defendant argues that we should follow the guidance of Kilcauski, 2016 IL App (5th)

140526. Kilcauski, however, is distinguishable on at least two important bases. First, and most
importantly, Kilcauski analyzed the delay issue along the constitutional speedy-trialIBarker
pathway. Id.

24-36. For the reasons thoroughly discussed above, that analytical pathway is

inappropriate to the circumstances of this case.
11 108

The second basis is that the unusual and unique factual circumstances of Kilcauski

render it distinguishable from this case. In Kilcauski, in July 2013, the defendant was arrested in
Illinois and held in Illinois. Id. ^ 3. Sometime before August 2013, defendant was delivered to
Missouri. Id. ^5. The trial court determined that the transfer to Missouri had occurred without
the completion of process to do so by the county and deemed that, because the defendant had
neither posted bond nor escaped, the defendant was still in the county’s custody. Id. H 6. A few
days later, the defendant filed a pro se motion for a speedy trial. Id.
filed an indictment against the defendant. Id. ^ 9.

39

8. In July 2014, the State

2019IL App (2d) 170373-U
H 109

<

The appellate court held that the defendant remained in the State’s custody because he

had never been released from the county’s custody even as he was being held in Missouri. The
court then embarked on the speedy-trial/Sarfe- analysis. Id.
K 110

28-30.

Unlike Kilcauski, defendant here was taken into custody following Clark’s murder, but

then his bond was revoked, and defendant was then in custody on the burglary conviction until
the indictment was filed. The fact that defendant was properly in custody on the burglary charge
serves to distinguish this case from Kilcauski, where the defendant was at all times deemed to be
in custody on the charges for which he was eventually indicted. Thus, the issues underlying the
Barker line of analysis were more directly in play in Kilcauski, where, here, it is inappropriate to
analyze the delay under Barker.

Accordingly, we reject defendant’s invitation to follow

Kilcauski.
1 111

Accordingly, for the foregoing reasons, we affirm the trial court’s judgment on the issue

of preindictment delay.
1H2
1113

B. Public Defender’s Office Conflict
Defendant next contends that the trial court erred in failing to grant the public defender’s

office’s several motions to withdraw as well as his various pro se motions to disqualify the
office. Clark had been appointed as conflict counsel in the burglary case in Wanke I. At the
most basic level in defendant’s motions to disqualify, defendant reasoned that, because he had
already been appointed conflict counsel for a prosecution occurring in the circuit court of
Winnebago County, he should also have received conflict counsel rather than counsel from the
pubic defender’s office in this case. In addition, defendant’s pro se motions seized upon the
rationales of the motions to withdraw of the public defender’s office. The public defender’s
40

*

2019ILApp (2d) 170373-U

office’s motions argued that conflicts precluded the office as a whole from effective
representation of defendant and generally identified members of the office who had participated
in the Clark murder investigation (O’Connor) or supervisors who believed themselves to be
conflicted (Sorensen and Doll).6 While the sauce-for-the-goose argument has no small measure
of surface appeal, it is devoid of actual legal analysis of whether the public defender’s office was
afflicted by a conflict.

We therefore address the issues apparent in the record after first

discussing the applicable principles and standard of review.
T1 114

There are two categories of conflict of interest: per se and actual. People v. Fields, 2012

1L 112438,

17. A per se conflict is based on facts about the attorney’s status. Id. We note that

defendant concedes that he is not contending that the public defender’s office was per se
conflicted. We accept that concession and note that, while O’Connor was per se conflicted by
virtue of her participation in the State’s official actions investigating Clark’s murder, that
conflict cannot be imputed to the public defender’s office as a whole. See People v. Cole, 2017
IL 120997, ffll 34-35 (reaffirming the long-standing principle that a public defender’s office,
unlike a private law firm, is not conflicted out because one member, even a supervisor,
experiences a conflict).
11 115

By contrast, an actual conflict appears to refer to any conflict that is not deemed a per se

conflict. See Fields, 2012 IL 112438, K 17. Two lines of analysis have developed to analyze an
actual conflict, depending upon whether the defendant informed the court of the conflict. People
v. Spreitzer, 123 Ill. 2d 1, 17-18 (1988). In the first instance, the defendant or the defense has
informed the trial court at an early stage in the proceedings of a potential or possible conflict. Id.
Perri's motion to withdraw was purely a personal motion to withdraw and did not allege the existence of
any office-wide conflicts.

41

2019 IL App (2d) 170373-U

.

at 18. .In that instance, the court is under a duty to either appoint separate counsel or to take
adequate steps to determine whether the risk of conflict is too remote to warrant appointing
separate counsel. Id. (citing Holloway v. Arkansas, 435 U.S. 475, 484 (1978)). If the trial court
does not take the appropriate steps, the defendant may be deprived of his right to counsel as a
result of the conflict, and the reversal of the defendant’s conviction does not require that the
defendant show actual prejudice, meaning that the attorney’s actual performance was affected by
the conflict. Id.
H 116

In the second line of analysis, neither the defendant nor the defense informed the trial

court about the possible or potential conflict. Id. In that instance, the defendant must show that
an actual conflict of interest adversely affected counsel’s performance. Id. In other words, the
defendant must indicate some specific defect, attributable to the conflict, in his or her counsel’s
strategy, tactics, or decision making, in other words, the defendant must demonstrate actual
prejudice. Id. However, while showing the existence of actual prejudice, the defendant need not
prove that his or her attorney’s shortcomings did not constitute harmless error. Id. at 18-19. In
other words, the defendant is not required to prove that the conflict contributed to his or her
conviction. Id. at 19.
H 117

The parties disagree about the standard by which we are to review this issue. Defendant

asserts that our review is de novo, citing Fields, 2012 IL 112438, K 19.

Fields, however,

expressly and specifically linked the de novo standard of review with the consideration the lower
court’s finding of a per se conflict. Here, defendant has conceded, properly, that any conflict
here is an actual conflict and not a per se conflict, so the de novo standard of review would not
seem to apply. For its part, the State asserts that the standard of review should be abuse of

42

*

f

2019IL App (2d) 170373-U

discretion, “because the facts in this case are at issue.”

The State, however, provides no

authority to support its assertion and, in any event, factual issues usually implicate the manifestweight-of-the-evidence standard of review. E.g., People v. Heritsch, 2017 IL App (2d) 151157
^ 8. This standard seems to understate the scope of our task, however. In our view, we are
reviewing the application of the law to the facts determined by the trial court, much like a
motion to suppress. We therefore will reject the trial court’s factual determinations only if they
are against the manifest weight of the evidence, and we will review de novo the trial court’s
conclusions as to whether the facts satisfy the legal standard. People v. Johnson, 237 Ill. 2d 81,
88-89 (2010).
U 118

With these principles in mind, we must decide which line of analysis applies to the facts

before us. The record clearly shows that both defendant and his counsel repeatedly and at an
early stage in the proceedings brought before the trial court the issue of the potential or possible
conflicts of the public defender’s office. This would place us in the first line of analysis where
the trial court is under the duty either to appoint separate counsel or to take the necessary steps to
determine if the potential or possible conflict is too remote to warrant appointing separate
counsel. It is also manifestly apparent in the record that the trial court held a hearing each time
defendant or counsel raised the issue of potential or possible conflicts in the public defender’s
office.

Based on this understanding, defendant’s argument becomes whether the trial court

correctly ascertained the existence of potential or possible conflicts from the facts presented.
With this understanding of defendant’s argument, we address his contentions.
T1 119

Defendant argues that Clark’s close ties to the public defender’s office and to the public

defender Sorensen and then Doll as well as other supervisors in the office so poisoned the office

43

2019IL App (2d) 170373-U

i

that effective representation by the individual assistants was impossible. Among the documents
cited by defendant to support this contention was Perri’s motion to withdraw. However, Perri
made it clear that he was withdrawing only on his own, personal behalf. Therefore, we do not
believe that Perri’s motion can stand as a proxy for the entire office.

We also note that

defendant’s trial counsels, Zimmerman and Simmons, both indicated that, while they were
concerned about the issue, they believed that they could effectively and did effectively represent
defendant. The record supports their representation. Accordingly, we will not consider Perri’s
personal motion to withdraw as representing the attitude of the office as a whole, only Perri’s
own personal beliefs and attitude.
If 120

Defendant notes that Sorensen attended grade school and high school with Phyllis Clark

and high school with Clark. Clark and his son-in-law attended various of the office’s social
functions and Clark’s family maintained their social connections with the public defender’s
office.

Defendant argues that the supervisory roles of Sorensen and Doll, who both were

excused by the trial court from representing defendant, would have chilled or inhibited the
assistant public defenders that they supervised and deprived defendant of effective conflict-free
representation. This argument is a variant on the idea that the conflict of one member of the
public defender’s office, even if a supervisor, is imputed to the entire office. This argument is
incorrect as a matter of law. Cole, 2017 EL 120997,
U 121

34-35.

Moreover, the trial court heard argument regarding Sorensen’s childhood experiences of

going to school with Clark and his wife and held that the connection was too tenuous to support
a conflict even if it permitted Sorensen to be excused from personally representing defendant.
We cannot say that this determination was against the manifest weight of the evidence. In a

44

*

>

2019IL App(2d) 170373-U

small legal community, it is likely that many members will have numerous social interactions
and develop professional relationships. To extrapolate a conflict simply on the basis of social
and professional relationships, particularly where, as here, the victim was an experienced and
long-serving member of the legal community would disrupt the ability of the State, through each
county’s public defender’s office, to represent indigent citizens and devastate the county’s
finances. Something more substantial is needed.
H 122

It is illuminating to compare Sorensen’s situation with Perri’s personal conflict.

Sorensen had grown up with Clark’s wife and Clark, attending the same schools. By contrast,
Perri alleged that his ties with Clark went beyond shared childhood educational
experiences—Clark was a mentor and someone who influenced and assisted his legal career.
Perri admired Clark and sought his counsel and advice.

This suggests a much closer and

significant relationship that poisoned Perri’s ability to represent Clark.
H 123

It is significant that defendant and counsel alleged only the expected professional

interactions between Clark and Sorensen and members of the public defender’s office.
Particularly, defendant did not allege that Sorensen was a close friend of Clark or Phyllis Clark.
Likewise, the other members of the office were not alleged to be close friends or to have any
specific ties to Clark or Henbest. By contrast, Perri, in his personal motion to withdraw alleged
precisely the sort of relation and personal and professional influence with Clark that is lacking
with respect to the allegations regarding Sorensen and the other members of the public
defender’s office.
1 124

Defendant asserts that the senior members of the office “viewed this case as one

involving the murder of their close friend and colleague, and father-in-law to another of their

45

2019IL App (2d) 170373-U

close friends.”

The support for this assertion comes not from the trial court’s factual

determination but from Perri’s motion to withdraw. While we can say that the quoted passage
from defendant’s brief applies to Perri, there is no evidence that the members of the office felt
the same way. Defendant points to Schmidt’s motion to withdraw on behalf of the office in
which Schmidt alleged that he could not discuss the case with his colleagues in the office
because he believed that many of them believed that defendant was guilty of the Clark murder,
but he did not know which of the assistants felt that way. The trial court noted, correctly, that
there was no authority for the proposition that an assistant public defender had to be able to
discuss an assigned case with others in the public defender’s office not assigned to the case.
Moreover, the trial court determined that neither Schmidt nor his co-counsel at the time were
conflicted, and they could discuss the case amongst themselves.

We cannot say that this

determination was against the manifest weight of the evidence.
U 125

Defendant points to his pro se “motion to compel” in which he alleged that the public

defender’s office’s investigator refused to investigate purportedly exculpatory evidence, believed
that defendant was guilty of the offense, and expected the office to be removed from the case.
The problem here is that the trial court allowed the so-called motion to compel to be filed, but, as
defendant was represented by counsel at the time, did not consider it. While it is part of the
record on appeal, the trial court was correct in its determination that it was without effect and
could not be considered. The motion to compel did not claim that counsel was ineffective or
seek to disqualify the public defender’s office due to a potential or possible conflict. It was a
motion filed by defendant in the apparent belief that he could both have the representation of the
public defender’s office and still act as the office’s co-counsel in his own case. This belief is

46

*

^

2019IL App (2d) 170373-U

erroneous, and we cannot accept defendant’s arguments based on his allegations in the motion to
compel as this was never properly before the trial court and is not properly before us despite its
presence in the record. People v. Flynn, 341 Ill. App. 3d 813, 821 (2003) (it is well established
that a defendant may not engage in a hybrid representation in which he simultaneously proceeds
pro se and is represented by counsel). We therefore hold that the trial court’s determination that
the motion to compel was not to be considered was neither against the manifest weight of the
evidence nor erroneous as a matter of law. Id.
126

Defendant’s general proposition appears to be that the emotional nature of the offense,

which saw a long-serving and well-regarded member of the defense bar gunned down in his
driveway, was so emotionally horrifying, that no member of the public defender’s office could
be expected to serve the accused’s interests effectively and zealously. We disagree. Many
crimes are horrific and emotionally taxing. That does not upset the principle that a lawyer is
expected to serve the interests of his or her client alone. Defendant has not demonstrated some
fact indicating a particularly close connection between any of the individuals engaged in his
representation (Schmidt, Zimmerman, Simmons) and Clark. Likewise, the trial court determined
there were no facts presented that demonstrated such a conflict, and this determination was not
against the manifest weight of the evidence. We therefore reject defendant’s contention.
U 127

Defendant argues that O’Connor, who was an assistant State’s attorney at the time of the

offense, is conflicted and her conflict should be imputed to the office. As noted above, the
conflict of a member of a public defender’s office is not routinely imputed to the office. Cole,
2017 DL 120997,1fl| 34-35. The trial court properly determined that O’Connor was individually
under a per se conflict by virtue of participating in the investigation on behalf of the State.

47

2019IL App (2d) 170373-U
Beyond the speculation that O’Connor’s status as a colleague in the office might inhibit fully
adversarial cross-examination if she were called as a witness, defendant can point to nothing in
the record to show that O’Connor’s conflict somehow would infect the office. Defendant insists
that O’Connor’s participation in the bond revocation in the burglary case was relevant here. The
trial court adjudicated the issue and determined that the bond revocation had been fully litigated
in Wanke I and was not relevant here. We agree. In any event, O’Connor never appeared in this
case a witness, so any concerns regarding the inhibitions of her colleagues in cross-examining a
senior member of their office did not come to fruition and cannot be the basis of a finding of a
conflict. We reject defendant’s argument.
U 128

Defendant insists that O’Connor’s participation in the grand jury convened in this matter

shortly after the offense was not investigated and speculates that there is no way to know why
Zimmerman and Simmons did not challenge that conduct.

Simply stated, counsel did not

challenge the conduct because it was not deemed to be relevant and the trial court expressly held
so. We cannot say the trial court’s determination of irrelevance was erroneous.
H 129

Defendant last contends that unknown members of the public defender’s office aided the

official investigation against him. Defendant refers to one assistant public defender informing
the police that the assistant’s client had information on the Clark murder and was willing to
share it with police. This appears to be nothing more than the assistant zealously representing
his or her client even while the State was involved in an investigation of defendant, who
ultimately was represented by the same office. This is not uncommon and does not result in the
disqualification of the public defender’s office as a whole. Cole, 2017 IL 120997, ffij 34-35.

48

*

'4

2019ILApp (2d) 170373-U

Moreover, there has been no suggestion that any of the attorneys who represented defendant
represented the jailhouse informant. Accordingly, we reject defendant’s contention.
1 130

For the reasons above, therefore, we hold that the trial court correctly determined that

none of the circumstances presented an impermissible potential or possible conflict.

We

therefore conclude that the trial court did not err in denying the various motions to withdraw on
the part of the public defender’s office or defendant’s various motions to disqualify the public
defender’s office.
1131
H 132

C. Prior Consistent Testimony
Defendant next argues that the trial court improperly allowed the State to bolster its

eyewitness testimony with their prior consistent statements under the guise that they were
statements of identification.

Defendant argues that the sheer volume of the purported

identification testimony, 35 instances by his count, tipped the scales in what was otherwise a
closely balanced circumstantial case.
Tj 133

Generally, the admissibility of evidence is within the discretion of the trial court, and we

will not reverse the trial court’s judgment absent an abuse of discretion. People v. Nelson, 2019
IL App (2d) 161097, ^ 11. An abuse of discretion occurs where the trial court’s judgment is
arbitrary, fanciful, or unreasonable, or constitutes an error of law. Id.
1 134

Defendant argues that the State used evidence of prior consistent statements

masquerading as identification testimony to improperly bolster the testimony of its eyewitnesses.
Generally, a party may not bolster the testimony of its witnesses on direct examination by
introducing the witness’s prior consistent statements. People v. Anderson, 2018 IL App (1st)
150931, U 37. However, section 115-12 of the Criminal Code of 1963 (Code) (725 ILCS 5/115-

49

2019IL App (2d) 170373-U

*

12 (West 2016)) provides: “A statement is not rendered inadmissible by the hearsay rule if (a)
the declarant testifies at the trial or hearing, and (b) the declarant is subject to cross-examination
concerning the statement, and (c) the statement is one of identification of a person made after
perceiving him.” Statements fitting into this exception are admissible as substantive evidence.
Anderson, 2018 IL App (1st) 150931, U 37. There does not appear to be any dispute that the
eyewitnesses testified at trial and were subject to cross-examination. The issue, then, is whether
the challenged statements were statements of identification under section 115-12.
1 135

While such statements are defined broadly to encompass the entire identification

process, that does not give the proponent carte blanche to introduce every conversation between
a witness and a police officer. Id. H 38. Rather, the testimony admitted under this exception
must be limited to those statements pertaining to the identification of a person after perceiving
him. Id.
H 136

Likewise, Rule 801 provides that a statement is not hearsay if, “[i]n a criminal case, the

declarant testifies at the trial or hearing and is subject to cross-examination concerning the
statement,” and the statement is “one of identification of a person made after perceiving the
person.” Ill. R. Evid. 801(d)(1)(B) (eff. Oct. 15, 2015). The rules of evidence were meant to
codify existing Illinois law, and particularly, Rule 801(d)(1)(B) was a codification of section
115-12 of the Code. People v. Temple, 2014 IL App (1st) 111653, H 46.
H 137

Defendant challenges the State’s utilization of the eyewitness testimony about what they

observed, then the testimony of what the witness told the police, and then the police witnesses
testifying about what they were told by the eyewitnesses. As an example, defendant highlights
the testimony of Ingvar Carlson, in which he testified about observing the blue van driving

50

j

f

2019IL App (2d) 170373-U

toward the scene of the shooting a few minutes before the shooting occurred. Carlson identified
a picture of the van as the van he had observed. Carlson also testified that, later in the evening
of the shooting, he was shown the van depicted in the picture and identified it as the van he had
seen despite some initial hesitation. Carlson testified that five days after the shooting, he gave a
statement to the police in which he stated that the van he had been shown in the evening after the
shooting was the van that he observed a few minutes before the actual shooting.

A police

witness also testified that he showed Carlson the van and received an identification from
Carlson, who was not positive in his identification. Finally, a second police witness testified that
he took Carlson’s written statement in which Carlson stated that the van depicted in the picture
shown at trial was the van he had seen earlier.
138

Similarly, defendant highlights the testimony of Peter Kruchten who identified both the

van and gave a description of the driver. Kruchten went through his observation of the van,
identified the State’s exhibit, described his interaction with a police officer on the scene, and his
show-up identification of the van. Likewise, police officers testified about their interactions with
Kruchten at the scene, his description of the van, and the show-up identification procedure and
identification.
1] 139

Kruchten also went through the same testimonial process regarding his observations of

the van’s driver.

He testified about what he observed and what he related to the police.

Kruchten testified that, a few days after the shooting, he saw a newspaper picture with
defendant’s picture and identified it as being of the driver to the police.

Police witnesses

testified about the descriptions they received from Kruchten and his later identification from the
newspaper picture.

51

2019IL App (2d) 170373-U

11 140

>. li,

Defendant contends that, in the case of each of the eyewitnesses, the State followed

essentially the same procedure of the eyewitness identifying the exhibit, the eyewitness
explaining his or her observations to the police, and the various police officers testifying about
receiving the descriptions and the statements from the eyewitnesses. Defendant argues that this
process resulted in little more that the introduction of the witnesses’ prior consistent statements
which improperly bolstered the testimony of the witnesses and, by sheer dint of the repetition,
served “establish” as fact that which had been repeated over and over. Defendant argues that
this constituted reversible error.
K 141

Defendant attempts to frame the issue as one involving prior consistent statements. Prior

consistent statements are generally inadmissible except to rebut a charge or inference that the
witness is motivated to testify falsely or his or her testimony was recently fabricated. Ill. R.
Evid. 613(c) (eff. Oct. 15, 2015); People v. Williams, 147 Ill. 2d 173, 227 (1991). Defendant
argues that, as prior consistent statements, the complained-of testimony was inadmissible, and no
charge of improper motive or recent fabrication was made or inferred. Thus, the prior consistent
statements had the effect of repeating testimony to the jury until the jury took it as fact simply by
dint of repetition.
142

While we understand defendant’s concern, we believe that the proper characterization of

the eyewitnesses’ testimony is identification testimony. We note that, in Temple, 2014 IL App
(1st) 111653, the court endorsed the same procedure utilized in this case as being fully proper
under the common law of statements of identification, section 115-12 and Rule 801(d)(1)(B). Id.
HI) 41-42, 46. In that case, the State had the witnesses explain the process of their identification,
including a vehicle, what the witnesses told the officers, and then had the police testify as to their

52

.*

>

<

2019 IL App (2d) 170373-U

interactions with the witnesses. Id.

41-42. The court analyzed People v. Tisdel, 201 Ill. 2d

210 (2002), People v. Shum, 117 Ill. 2d 317 (1987), and People v. Newbill, 374 Ill. App. 3d 847
(2007), in determining that the entire identification process comes under the exceptions to the
rule against hearsay carved out in section 115-12 and Rule 801(d)(1)(B). Id. fflj 34-42. Beyond
the fact that, in Temple there were only three eyewitnesses and here there were eight, we see no
significant difference between the cases that would suggest that Temple should not guide our
decision. Accordingly, we follow Temple and hold that the objected-to testimony was properly
admitted as the identification-testimony exception to the rule against hearsay. The trial court,
therefore, did not abuse its discretion in allowing the testimony.
H 143

Defendant argues that the objected-to testimony was simply the improper bolstering of

prior consistent statements. We note that the purpose of allowing witness testimony about the
full identification process is to allow the trier of fact to be fully informed about the reliability of
the witness’s identification and the elements of suggestiveness or lack of suggestiveness in that
process. Id. U 37 (quoting Tisdel, 201 Ill. 2d at 219). Defendant’s contention misses the mark
because it fails to note that the testimony concerned the actual identification and observations of
the van, the driver, and the circumstances regarding its reliability and the suggestiveness in that
process. Section 115-12 and Rule 801 have simple prerequisites: the declarants testified at the
trial and they were all subject to cross-examination. 725 ILCS 5/115-12 (West 2016); Ill. R.
Evid. 801(d)(1)(B) (eff. Oct. 15, 2015). In addition, the statement must be one of identification
made after perception.

Id.

While defendant’s concern is about the repetitiveness of the

testimony concerning the identification process, it fails to address how the objected-to testimony
failed to satisfy the requisites of the statute or the rule.

53

Noting that the statements of

2019IL App (2d) 170373-U

>

identification were repetitive does not transform them into prior consistent statements. We reject
defendant’s invitation to reffame the issue.
H 144

Defendant suggests that the recent enactment of the Illinois Rules of Evidence abrogated

any common-law authority accepted prior to the enactment of the rules.

This argument is

incorrect. The enactment of the rules was meant to codify the common law, not supplant it.
Temple, 2014 IL App (1st) 111653, H 46.
1 145

Defendant argues that the policy behind the prohibition against prior consistent

statements differs from that behind identification testimony. Defendant contends that in the case
of prior consistent testimony, the harm to be avoided is the acceptance by the trier of fact of oftrepeated evidence; by contrast, the harm to be avoided by an exception to the rule against
hearsay, like the identification-testimony exception, is unreliability.

While we accept this

proposition, defendant fails to grapple at all with why the objected-to testimony is not
identification. Instead, defendant focuses solely on its repetitive nature and miscategorizes it as
prior consistent testimony. Properly viewed, the testimony is identification testimony, as each
witness described his or her observations, including the police who interacted with the
eyewitnesses. See id.
1H6

41-42.

Accordingly, for the foregoing reasons, we hold that the trial court did not abuse its

discretion in admitting the identification testimony.
1147
H 148

D. The State’s Closing Arguments
Defendant argues that the State’s closing arguments were improper because they were

not based on evidence and misstated evidence to his prejudice. However, defendant did not
object at trial to any of the remarks raised here, so they are forfeited. People v. Camacho, 2018

54

i

*

^

r

2019 1L App (2d) 170373-U

IL App (2d) 160350, ^ 37 (to preserve a claimed error, the defendant must both object at trial
and raise the claimed error a posttrial motion). Defendant, however, contends that we should
review the claimed errors under the plain-error rule. Alternatively, defendant contends that
counsel provided ineffective assistance by failing to object to the errors at trial and for failing to
include them in his posttrial motion.
11149

Plain error is a narrow means of avoiding forfeiture. Id.

38. Under the plain-error

doctrine, a court can review unpreserved clear or obvious error when: (1) the evidence is closely
balanced and the error threatened to tip the scales against the defendant; or (2) the error is so
serious it challenges the fairness and integrity of the judicial process. Id. Our starting point is to
determine whether there was reversible error in the first instance, because absent reversible error,
there can be no plain error. Id.
1150

A prosecutor is allowed wide latitude in delivering closing arguments. Id. TJ 39. The

prosecutor may comment on the evidence and any reasonable inference arising from the
evidence. Id. When reviewing a closing argument for error, we consider the argument as a
whole rather than focusing on a few select remarks. Id. For a court to find reversible error based
on closing arguments, the defendant must identify those remarks that were both improper and so
prejudicial that justice was denied or that the verdict of the jury may have been caused by the
error. Id.
1 151

Here, defendant identifies the State’s motive argument as not being based on the

evidence and hence, an unreasonable inference. Defendant also identifies a number of purported
factual misstatements which tended to paint an erroneous picture of the circumstances of the

55

2019IL App (2d) 170373-U

offense and to lead the jury inexorably and mistakenly to the conclusion that he was guilty. We
begin with defendant’s contention about the motive argument.
1 152

According to defendant, the State’s motive argument was that he wished to remove

Clark from the case even to the point of murdering him. According to the State, defendant’s
desire to remove Clark was inferential and arose out of the conflict and upset in their relationship
caused by Clark’s representation and defendant’s disagreements with Clark. We have carefully
reviewed the evidence and the arguments and cannot say that the motive presented by the State
was not a reasonable inference. Zerouali testified that, as the burglary case progressed, she
observed the two men becoming tenser in each other’s presence. Toward the end, both were
cutting the other off and speaking over the other. The State also introduced portions of pleadings
filed by defendant which discussed Clark’s perceived shortcomings in harsh and forceful terms.
In addition, we note that, the day before the originally scheduled sentencing hearing in Wanke /,
someone took a potshot at Clark as he was taking out the garbage.

Two days before the

rescheduled sentencing hearing, in the midst of a severe winter storm that had shut down the
City of Rockford, someone using the same gun as before shot and killed Clark. The scientific
evidence established that it was the same gun used each time, so the inference reasonably arises
that it was also the same person each time. The timing of the shootings, although circumstantial
also leads to the reasonable inference that it was defendant who would have been most interested
delaying the sentencing, particularly as he was released on bond at the time. Finally, the web of
circumstantial evidence from the identification of the vehicle to the consistent description of the
driver, to the eventual identification of a picture of defendant by the witnesses who testified that
they had observed the driver suggest that it was indeed defendant who committed the offense.

56

j

2019 IL App (2d) 170373-U

Attempting to explain why, the State inferred it was because defendant wanted to remove Clark
from the case and was out of options to do so in any other fashion. Based on the totality of the
closing arguments and the evidence admitted, we hold that this was neither an unreasonable
inference nor that it was not based on the evidence admitted at trial. Accordingly, there was no
error accruing from the State’s remarks about the motive.
u 153

Defendant also contends that the remarks that defendant was the only person in the

world who was trying to remove Clark from his case were also unmoored from the evidence and
erroneous. We view these remarks as the other side of the coin of the motive remarks. While
categorical statements such as these are perhaps inherently fraught with the opportunity to
overstate one’s position thereby diminishing one’s credibility with the audience, here, they are
still supported by the extremely suggestive timing of the shootings, the ongoing nature of the
case with defendant, the fact that Clark was both a general practitioner and a part-time conflict
attorney, and the rocky and deteriorating relationship between the men. Thus, we hold that the
inference was likewise reasonable and sufficiently based in the evidence.
U 154

Next, defendant identifies certain purported factual misstatements throughout the State’s

closing arguments. We preface our consideration by noting that the jury was instructed that the
parties’ arguments were not evidence and that the jurors were to rely on their own recollection of
the evidence, not the statements of the attorneys. As an initial pass, therefore, the jury was
administered an appropriate curative instruction that presumptively inoculated it against heeding
the purported factual misstatements made by the prosecutors. People v. Sims, 2019 IL App (3d)
170417, 11 49 (the jury is presumed to follow its instructions; the instruction that closing

57

2019IL App (2d) 170373-U

>

arguments are not evidence greatly diminishes any possible prejudice cause by improper remarks
in closing argument).
1 155

Defendant first notes that, in the initial closing argument, the prosecutor stated that

Christopher Pro provided the same description of the driver of the van—middle aged, glasses.
grayish hair, scruffy beard—as the other witnesses who testified that they had observed the
driver. However, Pro also testified that he was focusing entirely on the van to make sure it
would not collide with his car, so he did not observe the driver. We agree that this statement was
factually incorrect. Based on the jury instructions, however, any error, given that it was an
isolated misstatement by this prosecutor, was likely minimal and certainly was not prejudicial.
1156

The same prosecutor also argued that all of the computers seized in this matter “went

dark” from 11 a.m. to 5 p.m. Defendant argues that this misstatement was prejudicial because it
expanded the window of time in which defendant could have committed the crime and returned
to where he was next observed. We disagree with defendant’s conclusion. We note that the
statement is factually inaccurate. However, we also note that immediately after making the
inaccurate statement, the prosecutor remarked that the shooting occurred at 1:54 p.m., and the
phone was used at defendant and Chavez’s residence placing a call to Chavez 21 minutes later.
Thus, notwithstanding the inaccuracy, the prosecutor did not expand the time window to six
hours, rather, he limited it to 21 minutes.

Thus, defendant’s contention that the prejudice

accruing from the erroneous comment was the expansion of the time window is without merit.
As well, the jury instructions served to diminish any possible prejudice.

In light if the

inconsequential nature of the inaccuracy, we cannot say that the error was prejudicial.

58

X-

m

r

2019ILApp (2d) 170373-U

T1 157

Next defendant consolidates two separate statements by the prosecutor during the State’s

rebuttal closing argument to assert that Clark’s only legal business was Clark’s sentencing, both
on November 5, 2007, and on February 8, 2008. Turning to the first remark, the prosecutor
argued: “Two days before Mr. Clark was to appear and represent the defendant at the sentencing,
he is murdered in his front yard, clearing the walkway. One day before the original sentencing
date, November 5, Mr. Clark is shot at while he takes garbage out to the curb.” In the next
remark, the prosecutor argued:
“Each time there was an attempt on Mr. Clark’s life, the defendant was on notice
that Mr. Clark was not getting off his case. The first attempt, November 4th. If at first
you don’t succeed, try, try again. And he tried again February 6th, and that time he
succeeded. He took the opportunity of the courthouse being closed. Knowing that, Mr.
Clark had no legal business that day in the courthouse because it’s closed. He knew that.
It’s shut down.”
^1 158

Based on these remarks, defendant argues that:
“There was no evidence of what other cases Clark had scheduled on February 6-8, and it
strains credulity to suggest that a working attorney had zero cases scheduled for two
consecutive days and a single case scheduled for a third day. Furthermore, since the
defendant’s case was not scheduled for February 6, there was no evidence that the
defendant knew the courthouse was closed that day. Finally, there was certainly no
evidence that the defendant had any idea whether Clark had any other legal business on
that day. The prosecutor invented all of those claims to suggest the defendant’s strategy
for killing Clark.”

59

2019IL App (2d) 170373-U

1159

t

Defendant’s argument misconceives the import of the prosecutor’s remarks. The first

remark obviously refers to February 6, 2008. Thus, the prosecutor argued that, because of the
snowstorm shutting down the city, Clark had no legal business to attend to at the courthouse.
The prosecutor further implies that, because the city was shut down, Clark did not have legal
business at his office. Given the fact that Clark stayed home, this was a reasonable inference to
convey. Likewise, the second passage also obviously refers to February 6. The prosecutor again
suggests that defendant took advantage of the winter storm to find Clark in an isolated position,
such as at home, rather than in a public and crowded space, such as the courthouse. While it is
true that the jury did not have a full picture of what other cases occupied Clark’s calendar around
the dates of the shootings, the contention is a red herring. The prosecutor’s remarks conveyed
the reasonable inference that defendant seized an unexpectedly presented opportunity. We find
no factual inaccuracy with these statements and determine that defendant’s reading of the
prosecutor’s remarks is untenable.
1 160

Defendant next raises the prosecutor’s statement in rebuttal closing argument that Smith

called the police to notify them that he had discovered a bag of wet clothes in his basement.
This remark is factually incorrect. The bag of wet clothes was discovered during the police
search of Smith’s home pursuant to a warrant. In fact, Smith called the police several days after
the search to report that he had discovered items in his garage he believed to be from Chavez’s
van. Defendant argues that, by conflating the discovery of the bag of wet clothes with Smith’s
call to the police about the items in the garage, the prosecutor implied that it was unusual and
suspicious for defendant to wash his clothes at Smith’s house.

60

V

x

2019IL App(2d) 1703 73 -U

11 161

The prosecutor actually remarked, “Well, who’s doing laundry in the middle of a

blizzard, not at your own house?

And so he leaves this bag of clothing there, washes

everything.” The statement, properly read, implies that it is odd for a person to leave his or her
house in the middle of a blizzard to travel to another’s house simply to do laundry.7 Defendant
then suggests “that the same grand jury testimony the State used as evidence that the defendant
told Smith he had done his laundry also contained Smith’s explanation that it was common for
the defendant and Chavez to do their laundry at his house.” However, whatever defendant is
referring to was not entered into evidence. The portion of the grand jury testimony explaining
that defendant commonly did his own laundry at Smith’s home was never discussed during
Smith’s testimony, either by the State or by the defense. Moreover, Smith testified that it was
common for Chavez to visit on Sunday mornings, prepare breakfast for Smith and herself, and to
do her laundry. Smith testified that the Sunday visits were “[their] time,” and defendant did not
participate in those visits. Thus, the actual inference from the evidence in the record and before
the jury was that it was common for Chavez to do her laundry at Smith’s house, but no mention
was made of defendant other than, on the day of the murder, he used Smith’s washer. Thus,
even under defendant’s argument, there was nothing improper about attempting to suggest that it
was unusual for defendant to do laundry at Smith’s house because there was no evidence
presented that defendant customarily or regularly did laundry at Smith’s house.8 Accordingly,
the misstatement was inconsequential and defendant’s argument itself is not based on the record.

We also note that, factually, the fact that defendant apparently placed wet or damp clothes into a
garbage bag and left the bag in an obscured location behind boxes in Smith's basement compounds the oddness
commented upon by the prosecutor.
Defendant does not allege that counsel was ineffective for failing to establish that he customarily or
regularly did laundry at Smith's house.

61

2019IL App (2d) 170373-U

1 162

v

Defendant next argues that during the rebuttal closing argument, the prosecutor

improperly argued that, while the four eyewitnesses failed to identify defendant in the photo
lineups they were shown on the evening of the offense, “they all ‘said’ that his hair and beard
matched those of the driver of the van.” Defendant concludes that this purported misstatement
prejudicially told the jury that the eyewitnesses had identified the defendant’s physical
characteristics as matching those of the van’s driver.
U 163

We quote the portion of the argument to which defendant refers:
“This is the jacket he had on. That picture was taken that evening after he was
taken into custody. There’s no speculation there.
And, you know, he looks very different without his glasses. And the witnesses
were asking about the glasses. And they said, Scruffy beard. Yeah, that’s here. Straggly
hair. But he had glasses on.
Why do you think he took them off? And he didn’t take them off till he got to the
police station. Because you know he had them on because the officers saw him with the
glasses. He took them off because he thinks he’s smarter than everybody else and he
knew they were gonna be photographing him and showing that picture to the witnesses
who saw him in the neighborhood, who would recognize him—because he didn’t belong
there. He was a stranger; he didn’t live there.
So a few days later these smart and good neighbors see this picture. It’s him.
They’re the ones calling the police; the police aren’t calling them.

They are on the

phone, fast dialing—whatever—contacting the police, telling them, ‘That’s the man.’
And who is the man? It’s the defendant (indicating).”

62

i-

w

2019IL App (2d) 170373-U

164

We cannot say that the record supports defendant’s argument. Defendant argues that the

prosecutor erroneously implied to the jury that the eyewitnesses “said” to police that defendant’s
physical characteristics matched those of the driver of the van. Instead the argument explains
why defendant was not identified in the photo lineups shown to the eyewitnesses: he had taken
off his glasses. Moreover, the record shows that the eyewitnesses’ testimony about the driver
similarly described the driver as being a middle-aged, white male with straggly hair and scruffy
facial hair. While the prosecutor employed the word “said,” defendant is incorrect regarding the
thrust and effect of the argument.

The remarks neither misstated the evidence nor raised

unreasonable inferences from the evidence. Finally, the jury instructions made it clear both that
the argument neither was evidence nor was the jury to accept as fact statements that were not
borne out by their recollection. Accordingly, we do not believe there was any error accruing
from these remarks.
^1 165

Next defendant argues that the prosecutor misstated the evidence by stating that the

neighbors “were the ones calling the police; the police [were not] calling them.” Again, this was
factually inaccurate, but the point appears to be wholly collateral and the distinction of whether
the neighbors reached out upon seeing the newspaper picture versus informing the police that
they had made an identification at the scheduled follow-up meeting appears to exalt the process
of the investigation over the substance. As noted, the jury instruction minimized any possible
error, and we believe that the misstatement concerns only a minimal procedural point and was
extraordinarily unlikely to cause any prejudice whatsoever.

63

2019IL App (2d) 170373-U

166

*»

The final set of remarks defendant challenges concerns the prosecutor’s statements that

the eyewitnesses identified defendant as the person they had seen “ ‘running to the van’ ”
immediately after the shooting. Defendant argues:
“Those were blatant misstatements of the testimony. Three witnesses saw a person near
the van in the immediate aftermath of the shooting. (Citation.) None of them identified
the defendant as that person. None of them even described that person except Phyllis
Clark, who was impeached with her prior statement that the person was five feet, seven
inches tall. (Citation.) The prosecutor simply invented eyewitness identifications and
argued them to the jury. The prejudicial effect of such an argument is self evident.”
K 167

The prosecutor’s actual remarks do not support defendant’s argument. In the first set of

challenged remarks, the prosecutor stated:
“Nobody told them who to pick out. They recognized him because they had seen
him. He’s the man driving the van the day Mr. Clark is murdered. He’s the man running
to the van. He’s the man in the neighborhood the day before Mr. Clark is murdered.
They recognized him.”
In the second set of challenged remarks, the prosecutor stated:
“And so I ask you if—if Counsel says these witnesses just collectively got
together and wanted to help, what is their motive? What bias would they have against
the defendant? They didn’t know him. There’s no evidence that they ever met him.
Their only motive, ladies and gentlemen, is to tell the truth about what they saw.
That’s their only motive. And they saw him. They didn’t see anyone else running to that

■ .64

v

•*

j

r

2019 1L App (2d) 170373-U

van. They saw the defendant. And that’s what they told you, and that’s what they told
the police officers. And they recognized him, and they identified him.
And you don’t have to speculate on anything because that’s not what you’re here
for. All you have to do is consider the hard facts. The hard facts.
And their recognition identification of the defendant is a hard, cold fact because
they were there, out and about, forced to be out in the snow. Some had to go to work,
some had to go to doctors, some got off work early. But we know that traffic was
moving, and we know that people were about.”
1(168

In the first place, defendant very carefully limits his challenge to the “running-to-the-

van” witnesses and ignores the witnesses who had other observations of defendant. The first
passage, however, clearly refers to all of the witnesses who observed defendant, either running to
the van, driving, or in the neighborhood.

The second passage is directed at the motive to

fabricate and, given the proximity to the first passage, the statement, “[t]hey didn’t see anyone
else running to that van,” is a call-back to the first passage and shorthand to remind the jurors
what had just been argued. In the totality of the argument and record, we do not believe that the
prosecutor misstated the evidence or drew an unreasonable inference.
K 169

Defendant notes that Phyllis Clark, Ingvar Carlson, and Clara Arco did not identify the

man running to the van. They nevertheless provided relatively consistent descriptions of the
man running to the van. We note that Clark stated that the man was five feet, seven inches tall,
whereas the other witnesses who observed the man’s height described the man as being tall. In
the other respects, though, the descriptions meshed to a significant degree.

Finally, other

witnesses identified defendant as the driver even if the specific “man-running-to-the-van”

65

2019ILApp (2d) 170373-U

»

witnesses did not identify defendant. Rather than “blatant misstatements of the testimony” the
remarks, viewed as a whole and not in isolation, encompassed all of the identification
testimony—those who saw a man running, those who saw a man driving, and those who saw a
man in the neighborhood—and we do not believe that the blanket statement that “they”
identified defendant is either a misstatement or unreasonable inference from the evidence despite
the fact that the identification was not categorically accomplished across all the eyewitnesses.
Accordingly, we do not believe that there was any error in these remarks, and certainly, there
was no prejudice accruing from them.
170

In sum, there were seven instances of improper argument identified by defendant. Four

of those instances contained minor and inconsequential factual inaccuracies that, in the totality
of the argument in light of the record, could not and did not mislead the jury. This is especially
so given the instructions to the jury. We hold, therefore, that, while defendant could have
successfully objected to the factual inaccuracies, they were not prejudicial and did not cause or
contribute in any discemable fashion to defendant’s conviction.
H 171
160350,

Because there is no reversible error, there is no plain error. Camacho, 2018 IL App (2d)
38. Accordingly, the forfeiture of defendant’s argument stands, and we continue to

honor the procedural default.
H 172

Defendant seeks to evade the forfeiture by arguing that counsel was ineffective for

failing to object or to raise the issue in his posttrial motion. To state a claim of ineffective
assistance of counsel, the defendant must show that counsel’s performance was deficient and
that the deficient performance prejudiced defendant. People v Clendenin, 238 Ill. 2d 302, 317
(2010). The defendant’s failure to establish either prong is fatal to the claim. Id. at 318.
66

V Ar

i*

rr

2019IL App (2d) 170373-U

1! 173

Here, defendant cannot establish prejudice. As explained above, the motive argument

was not erroneous, and, therefore, by definition, was not prejudicial, and the factual
misstatements were not prejudicial in light of the totality of the record and closing arguments, as
well as the instructions given to the jury.

Accordingly, we reject defendant’s ineffective

assistance claim.
H 174

For the foregoing reasons, therefore, we reject defendant’s contentions regarding the

State’s closing arguments.
H 175
K 176

E. Krankel Inquiry
Defendant last argues that the trial court erred in determining that, for purposes of his

preliminary Krankel inquiry, he had not demonstrated the possibility that counsel neglected his
case. Defendant argues that he demonstrated the possibility of counsel’s neglect in three ways:
first, for failing to object during closing arguments, second, for failing to call Chavez as a
witness to prove, via ATM and parking-fine receipts, that she had been downtown and not in
Clark’s neighborhood the day before the shooting, and third, for failing to investigate other
clients who were dissatisfied with Clark’s representation. We address the issues in turn.
11 177

As a preliminary matter, when a defendant makes a posttrial allegation of ineffective

assistance of counsel, the court is obligated to conduct an inquiry into the factual basis of the
claim. People v. Ayres, 2017 IL 120071, ^ 11. The trial court’s inquiry must be adequate to
determine the factual basis. Id. If the factual basis is found to be lacking on the merits or to
involve only matters of trial strategy, then the court need not appoint new counsel and may deny
the claim; if, however, the trial court determines that the allegations show possible neglect, then
new counsel should be appointed. Id.

67

2019IL App (2d) 170373-U

H 178

>>

While the inquiry’s form is not prescribed, it is expected that the trial court may discuss

the defendant’s allegations with both the defendant and the defendant’s trial counsel. Id. H 12.
As well, the court may base its determination on its knowledge of the defense counsel’s
performance during the trial and the insufficiency of the defendant’s allegations. Id. The point
of the proceeding is for the court to fully consider the defendant’s pro se claim and to create a
sufficient record for any claims raised on appeal. Id. U 13.
11179

Initially, we note that the trial court held a proper and sufficient inquiry. While the court

did not let defendant read his prepared statement or motion indefinitely, the record indicates that
the trial court read the motion, defendant’s prepared statement, and the exhibits attached to the
motion before inquiring with Zimmerman about his representation.

The proceeding fully

ascertained and considered defendant’s claims. Id.
^| 180

Defendant’s first basis for his posttrial claim of ineffective assistance is counsel’s failure

to object during the State’s closing arguments. We determined above that no prejudice accrued
from the failures to object. Accordingly, we reject defendant’s argument on this point.
I) 181

Next, defendant argues that the failure to call Chavez to rebut Misner’s testimony that

she saw Chavez the day before the shooting demonstrated possible neglect. When asked by the
trial court, Zimmerman indicated it was a strategic decision to attempt to insinuate to the jury
that Chavez was involved in the shooting while defendant was not. Defendant suggests that
Zimmerman’s explanation of strategy did not make sense. Nevertheless, we note that the State
introduced evidence that, on February 5, 2008, Chavez had clocked into work in the morning and
clocked out of work in the evening. Thus, there was evidence that Chavez was not in Clark’s
neighborhood. To that extent, Chavez’s testimony was unnecessary.

68

*

4

*

r.

2019IL App (2d) 170373-U

TJ 182

However, the issue seems largely collateral. Misner testified that, On February 5, 2008,

at about 12:15 p.m., she saw the blue van parked near her house and identified Chavez as the
driver. The primary significance is the identification of the van. However, the eyewitnesses to
events on February 6, 2008, also identified the blue van and defendant. Misner’s testimony does
not significantly enhance the February 6 witnesses’ testimony. Therefore, the failure to rebut
Misner’s already somewhat impeached testimony about seeing Chavez the day before the
shooting could not have been prejudicial. As there was no conceivable prejudice, the failure to
call Chavez could not have been indicative of possible neglect.
T| 183

Defendant argues that counsel did not fully investigate other individuals who may have

been dissatisfied with Clark’s representation. We note that counsel filed defendant’s eighth
motion in limine seeking to introduce evidence of other clients’ dissatisfactions with Clark’s
representation, so counsel had obviously investigated sufficiently to present the motion in limine.
Nevertheless, defendant raises Robert Appelgren as a former client of Clark’s who was
dissatisfied with Clark’s performance. Appelgren was also apparently sufficiently alarming that
his own son told police that he was crazy enough to have shot Clark. Defendant also notes that
Patricia Wakenight had been dissatisfied with Clark’s representation. This topic seems to be
subsumed in the trial court’s question to Zimmerman whether he had conducted an adequate
inquiry, to which Zimmerman replied that he had, and Zimmerman’s response is supported by
the fact of the motion in limine. Moreover, defendant’s argument is insufficiently specific. We
also note that defendant attached documentation showing that Appelgren’s criminal offenses
seemed to be remote in time as was Clark’s representation of Wakenight. Thus, it is unclear that

69

2019 IL App (2d)170373-U
\

defendant provided sufficient allegations of neglect, based on the overall inquiry conducted by
the trial court and its knowledge of the proceedings in this case.
We therefore hold that the trial court conducted a proper inquiry into defendant’s

II 184

allegations of neglect and did not err in refusing to appoint new counsel.
ffl. CONCLUSION

H 185

For the foregoing reasons, the judgment of the circuit court of Winnebago County is

1186
affirmed.
187

Affirmed.

'• <
r\.

C~>
<r-v

jT:,

•

70

^ . K !*. fj:
'

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035
FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312)793-1332
TDD: (312)793-6185

March 25, 2020
In re:

People State of Illinois, respondent, v. Richard Wanke, petitioner.
Leave to appeal, Appellate Court, Second District.

125609
The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court will issue to the Appellate Court on 04/29/2020.
Michael J. Burke, J., took no part.
Very truly yours

(\om>
Clerk of the Supreme Court

Additional material
from this filing is
available in the
Clerk's Office.

